No. 19In the

Supreme Court of the United States
DUANNA KNIGHTON,
Petitioner,
v.
CEDARVILLE RANCHERIA OF NORTHERN PAIUTE
INDIANS; CEDARVILLE RANCHERIA TRIBAL
COURT; PATRICIA R. LENZI, IN HER CAPACITY
AS CHIEF JUDGE OF THE CEDARVILLE
RANCHERIA TRIBAL COURT,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

Patrick L. Deedon
Counsel for Record
Maire & Deedon
2851 Park Marina Drive, Suite 300
Redding, CA 96001
(530) 246-6050
pdeedon@maire-law.com
Counsel for Petitioner

289981

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
“[T]he inherent sovereign powers of an Indian tribe do
not extend to the activities of nonmembers of the tribe.”
Montana v. United States, 450 U.S. 544, 565 (1981). The
Montana Court recognized two limited narrow exceptions
to that rule. But the Court has never resolved the question
of whether tribal courts may ever exercise civil tort
jurisdiction over nonmembers. In Plains Commerce Bank
v. Long Family Land & Cattle Co., 554 U.S. 316 (2008)
and in Dollar General Corporation and Dolgencorp, LLC
v. The Mississippi Band of Choctaw Indians, et. al. 136
S.Ct. 2159 (2016) the issue was brought before this Court,
but unanswered. This case presents the issue of: Whether
Indian tribal courts have jurisdiction to adjudicate civil
tort claims against nonmembers?
Further this case presents the issue of: If the Indian
tribal courts have jurisdiction to adjudicate civil tort
claims over nonmembers, what is the prerequisite notice
of any such authority, what is the prerequisite consent
thereto by a nonmember, and what is the viable scope of
such jurisdiction so as to satisfy the Due Process rights
of a nonmember?

ii
PARTIES TO THE PROCEEDINGS
The petitioner is Duanna Knighton.
Respondents are Cedarville Rancheria of Northern
Paiute Indians; Cedarville Rancheria Tribal Court, and
Patricia R. Lenzi, in her capacity as Chief Judge of the
Cedarville Rancheria Tribal Court.

iii
RELATED CASES
Duanna Knighton v. Cedarville Rancheria of
Northern Paiute Indians, et. al., Ninth Circuit Court of
Appeals, Case 17-15515 (April 24, 2019)
Duanna Knighton v. Cedarville Rancheria of
Northern Paiute Indians, et. al., Eastern District Court
of California, Case No. 2:16-cv-02438-WHO (February
15, 2017)
Cedarville Rancheria of Northern Paiute Indians,
et. al. v. Duanna Knighton, et. al., Court of Appeals for
the Cedarville Rancheria, Case No.: CED-CI-2014-0002
(March 7, 2016)
Cedarville Rancheria of Northern Paiute Indians, et.
al. v. Duanna Knighton, et. al., Cedarville Rancheria of
Northern Paiute Indians Tribal Court, Case No.: CEDCI-2014-00002 (March 11, 2015)

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS  . . . . . . . . . . . . . . ii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
PETITION FOR A WRIT OF CERTIORARI . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RELEVANT CONSTITUTIONAL
AND STATUTORY PROVISIONS . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
I.

Legal Background . . . . . . . . . . . . . . . . . . . . . . . . . 3
A. The Scope of Tribes’ Legislative
Authority . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
B. The Scope of a Tribes’ Adjudicative
Jurisdiction . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

v
Table of Contents
Page
C. T r iba l Cou r t Ju r isd iction Must
C o m p o r t W i t h Fa i r P l ay a n d
Substantial Justice to Comply With
the Requirements of Due Process . . . . . . . . 5
II. Factual Background  . . . . . . . . . . . . . . . . . . . . . . . 6
III. Procedural History  . . . . . . . . . . . . . . . . . . . . . . . . 9
REASONS FOR GRANTING THE PETITIONER . 12
I.

This Case Squarely Presents The Issue
Left Open in Hicks and the Question The
Court Granted Certiorari To Decide,
But D id Not , In Pla i ns Com merce
Bank And Dollar General . . . . . . . . . . . . . . . . . . 13

II. Absent Congressional Authorization, Tribal
Courts Have No Jurisdiction to Adjudicate
Tort Claims Against Nonmembers, And
A ny Adjudicative Author ity Cannot
Exceed Its Legislative Authority . . . . . . . . . . . . 15
III. The Ninth Circuit Has Created Conflicting
Precedent That Basically Provides For
Limitless Tribal Court Jurisdiction . . . . . . . . . . 18
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

vi
TABLE OF APPENDICES
Page
APPENDIX A — ORDER AND OPINION OF
THE UNITED STATES COURT OF APPEALS
FOR T HE NIN T H CIRCU I T, FILED
APRIL 24, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF CALIFORNIA,
FILED FEBRUARY 15, 2017 . . . . . . . . . . . . . . . . . 33a
APPENDIX C — OPINION OF THE COURT
OF APPEALS FOR THE CEDARVILLE
RANCHERIA, FILED MARCH 7, 2016 . . . . . . . . 62a
APPENDIX D — ORDER OF THE CEDARVILLE
R A NC H ER I A OF T H E NORT H ER N
PA IU TE INDI A NS , TRIBA L COURT,
FILED MARCH 11, 2015 . . . . . . . . . . . . . . . . . . . . . 70a

vii
TABLE OF CITED AUTHORITIES
Page
CASES
Atkinson Trading Co. v. Manygoats,
No. CIV 02-1556-PCT-SMM, 2004 U.S.
Dist. LEXIS 31789 (D. Ariz. Mar. 16, 2004)  . . . . . .  17
Atkinson Trading Co. v. Shirley,
532 U.S. 645 (2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Attorney’s Process and Investigation Servs. v.
Sac & Fox Tribe,
609 F.3d 927 (8th Cir. 2010) . . . . . . . . . . . . . . . . .  17, 19
Dollar General Corporation v.
Miss. Band of Choctaw Indians,
136 S. Ct. 2159 (2016)  . . . . . . . . . . . . . . . . . . . . . passim
Duro v. Reina,
495 U.S. 676 (1990)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Grand Canyon Skywalk Dev., LLC v.
‘SA’ Nyu Wa Inc,
715 F.3d 1196 (2013)  . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Lake v. Lake,
817 F.2d 1416 (9th Cir. 1987)  . . . . . . . . . . . . . . . . . . . . 5
MacArthur v. San Juan Cty.,
497 F.3d 1057 (10th Cir. 2007) . . . . . . . . . . . . . . . . . . 19

viii
Cited Authorities
Page
Montana v. United States,
450 U.S. 544 (1981)  . . . . . . . . . . . . . . . . . . . . . . . passim
Nevada v. Hicks,
533 U.S. 353 (2001) . . . . . . . . . . . . . . . . . . . . . . 5, 15, 18
Nord v. Kelly,
520 F.3d 848 (8th Cir. 2008) . . . . . . . . . . . . . . . . . . . . 19
Oliphant v. Suquamish Indian Tribe,
435 U.S. 191 (1978)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Plains Commerce Bank v.
Long Family Land & Cattle Co.,
554 U.S. 316 (2008) . . . . . . . . . . . . . . . . . . . . . . . passim
Stifel v. Lac DU Fambeau Band of Lake
Superior Chippewa Indians,
807 F.3d 184 (7th Cir. 2015) . . . . . . . . . . . . . . . . . . . . 19
Strate v. A-1 Contractors,
520 U.S. 438 (1997) . . . . . . . . . . . . . . . . . . . . . . . . . 4, 15
Water Wheel Camp Rec. Area, Inc. v. Larance,
642 F.3d 802 (9th Cir. 2011) . . . . . . . . . . . . . .  11, 15, 18
Window Rock Unified Sch. Dist. v. Reeves,
861 F.3d 894 (9th Cir. 2017) . . . . . . . . . . . . . . . . . . . . 18

ix
Cited Authorities
Page
World-Wide Volkswagen Corp. v. Woodson,
444 U.S. 286 (1980) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

STATUTES AND OTHER AUTHORITIES
Fifth Amendment to the United States Constitution . . 1
Fourteenth Amendment, § 1, to the United States
Constitution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
25 U.S.C. § 1302(a)(8) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Jacob R. Masters, Off the Beaten Path? The Ninth
Circuit’s Approach to Tribal Courts’ Civil
Jurisdiction over Nonmember Defendants,
38 Am. Indian L. Rev. 187 (2013)  . . . . . . . . . . . . . . . 19

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Duanna Knighton, respectfully petitions
for a writ of certiorari to review the opinion of the United
States Court of Appeals for the Ninth Circuit in this case.
OPINIONS BELOW
The order and opinion of the United States Court
of Appeals for the Ninth Circuit (App. A) is reported at
922 F.3d 892. The order of the district court (App. B) is
reported at 234 F.Supp. 3d 1042.
The opinion of the Court of Appeals For The
Cedarville Rancheria (App. C) is unpublished. The order
of the Cedarville Rancheria of Northern Paiute Tribal
Court (App. D) is unpublished.
JURISDICTION
The order and opinion of the court of appeals was
entered on April 24, 2019. (App. A) This Court has
jurisdiction pursuant to 28 U.S.C. § 1254(1).
RELEVANT CONSTITUTIONAL
AND STATUTORY PROVISIONS
Fifth Amendment to the United States Constitution,
“No person shall… be deprived of life, liberty or property,
without due process of law…”
Fourteenth Amendment, Section 1, to the United
States Constitution, “…nor shall any State deprive any
person of life, liberty, or property, without due process
of law.”

2
Indian Civil Rights Act, 25 U.S.C § 1302(a)(8), “No
Indian tribe in exercising powers of self-government
shall – deny to any person within its jurisdiction the equal
protection of its laws or deprive any person of liberty or
property without due process of law;”
STATEMENT OF THE CASE
Petitioner Duanna Knighton is a nonmember being
haled into a tribal court which should not have any
jurisdiction over her. No Cedarville Rancheria judicial
code nor a Cedarville Rancheria tribal court existed
during Ms. Knighton’s employment with the Cedarville
Rancheria. After Ms. Knighton’s employment with the
Cedarville Rancheria ceased, its twelve adult members
created, for the first time, a judicial code and tribal court.
Respondents seek to apply this judicial code and Tribal
Court ex post facto upon Ms. Knighton without Due
Process. The Tribal Court process denies Ms. Knighton a
jury. The Tribal Court process is completely confidential.
The Tribal Court process permits application of unknown
and unwritten tribal laws of any tribe. The Cedarville
Rancheria seeks over a million dollars in compensatory
damages and it further seeks punitive damages. Ms.
Knighton challenged tribal court jurisdiction within the
tribal court through a motion to dismiss, which was denied.
Petitioner’s appeal thereof to the tribal appellate division
was denied. Having exhausted tribal court remedies, Ms.
Knighton subsequently sought relief within the federal
court. The district court granted the Respondents’ motion
to dismiss, finding tribal court jurisdiction. The Ninth
Circuit upheld tribal court jurisdiction, greatly expanding
tribal court jurisdiction in direct conflict to Montana.

3
I.

Legal Background

The issue of tribal court jurisdiction was recently
argued on December 7, 2015, and a per curiam opinion was
issued on June 23, 2016, in the matter of Dollar General
Corporation v. Miss. Band of Choctaw Indians, 136
S.Ct. 2159 (2016). Following oral argument, Justice Scalia
passed away, resulting in an equally divided court. It was
anticipated that this Court’s decision in Dollar General
would have greatly defined tribal court jurisdiction. The
issue presented in Dollar General, is strikingly similar to
the issue in this case, to wit., the narrow scope of tribal
court jurisdiction.
Tribal court jurisdiction is not expansive; it is very
narrow. This Court held that “exercise of tribal power
beyond what is necessary to protect tribal self-government
or to control internal relations is inconsistent with the
dependent status of the tribes, and so cannot survive
without express congressional delegation.” Montana v.
United States, 450 U.S. 544, 564 (1981). This Court has
further stated, “[T]he Indian tribes have lost any right
of governing every person within their limits except
themselves.” Id. at 565. The tribes thus have restrictions
upon the right of “self-government” and “to control
internal relations” over tribal members; and even further
restriction over nonmembers. Additionally, the Court
draws a further distinction between a tribe’s legislative
power for rules covering nonmembers conduct on tribal
land and the tribe’s adjudicative authority to enforce those
rules against nonmembers in tribal court.

4
A.

The Scope of Tribes’ Legislative Authority

It has been clearly defined by this Court that, “the
inherent sovereign powers of an Indian tribe do not extend
to the activities of nonmembers of the tribe.” Montana,
450 U.S. at 565; see also Strate v. A-1 Contractors, 520 U.S.
438, 445 (1997) (tribal court jurisdiction over nonmember
conduct exists in only limited circumstances.) The Court
held that tribes cannot apply their criminal laws to
nonmembers. See Oliphant v. Suquamish Indian Tribe,
435 U.S. 191, (1978); See also Duro v. Reina, 495 U.S. 676
(1990). Similarly, the Court has generally prohibited civil
jurisdiction over nonmembers as well. Montana, 450 U.S.
at 565. The Court in Montana established two narrow
exceptions:
First, a “tribe may regulate, through taxation,
licensing, or other means, the activities of nonmembers
who enter consensual relationships with the tribe or its
members, through commercial dealings, contracts, leases,
or other arrangements.” Id. at 565.
Second, a “tribe may also retain inherent power to
exercise civil authority over the conduct of non-Indians
on fee lands within its reservation when that conduct
threatens or has some direct effect on the political
integrity, the economic security, or the health or welfare
of the tribe.” Id. at 566. This exception permits tribes to
regulate nonmember activities in the absence of consent
only when the conduct “imperil[s] the subsistence of
the tribal community.” Plains Commerce Bank v. Long
Family Land & Cattle Co., 554 U.S. 316, 341 (2008).

5
B. The Scope of a Tribes’ Adjudicative Jurisdiction
The Montana exceptions describe the scope of a
tribe’s legislative or regulatory authority; the power to
levy taxes or issue rules governing nonmember conduct
on a reservation. Nevada v. Hicks, 533 U.S. 353, 358
(2001). This Court held that whether tribes may enforce
those rules against nonmembers in tribal court is another
question. Id. at 357-58. Hicks made clear that this court
“never held that a tribal court had jurisdiction over a
nonmember defendant.” Hicks, 533 U.S. at 358 n.2. The
issue remains open whether, and to what extent, a tribal
court may exercise civil jurisdiction over nonmembers.
C.

Tribal Court Jurisdiction Must Comport With
Fair Play and Substantial Justice to Comply
With the Requirements of Due Process.

Jurisdiction is only found if traditional notions of fair
play and substantial justice are met. Lake v. Lake, 817
F.2d 1416, 1421 (9th Cir. 1987). This Court has required
predictability in the legal system so that a defendant
can reasonably anticipate being haled into court. WorldWide Volkswagen Corp. v. Woodson, 444 U.S. 286, 297
(1980). Similarly, this Court echoed that same need for
“predictability to the legal system” in the context of tribal
jurisdiction in Plains Commerce Bank, 554 U.S. at 337,
where it held that a nonmember can only meaningfully
consent to the “jurisdictional consequences” of a
consensual relationship that are reasonably foreseeable.

6
II. Factual Background
The Cedarville Rancheria of Northern Paiute Indians
(“Cedarville Rancheria”) is a federally recognized Native
American Indian Tribe, with its reservation, housing,
travel and community centers located on trust lands in
Cedarville, Modoc County, California. (App. 5a) The tribe’s
administrative headquarters is located approximately 30
miles away in Alturas, California, on land owned in fee by
the tribe. (App. 35a)
Ms. Knighton was employed by the Cedarville
Rancheria from approximately July 1996 to March 2013
and served as Tribal Administrator at the time her
employment ended. (App. 6a) She is not a member of the
Cedarville Rancheria and has never resided in, nor owned,
property on tribal land. Knighton is currently employed
by Resources for Indian Student Education (RISE),
a California not-for-profit corporation that provides
education services and programs to Indian children,
where she has been employed since 1995. (App. 7a)
Prior to creating a Constitution and Bylaws in
2011, and Tribal Court and Judicial Code in December
2013, the Cedarville Rancheria regulated employment
matters pursuant to Articles XIII-XVIII and XX of
the Cedarville Rancheria Policies (Personnel Manual).
Those policies established disciplinary and grievance
procedures for tribal employees and provided for Tribal
Council control over disciplinary action involving the
Tribal Administrator. There were no tort remedies over
an employee. (App. 6-7a)

7
In February 2011, the Cedarville Rancheria enacted
a Constitution and Bylaws, which provided for internal
governance of members but did not expressly extend
tribal jurisdiction to include nonmembers, nor provide a
mechanism for asserting civil adjudicative authority over
nonmember conduct. Pursuant to the Constitution and
Bylaws, the tribe’s Executive Committee (Chairperson,
Vice Chairperson, and Secretary) and the tribe’s
Community Council (all qualified voters of the Rancheria
who are 18 years of age or older), were responsible
for, amongst other things, issuing and carrying out
ordinances, resolutions, or other enactments, controlling
membership, establishing housing and other authorities
necessary to the welfare of the tribe; and vetoing any
proposed transaction involving tribal lands or assets.
The Tribal Chairperson was responsible for overseeing
all tribal matters, “including concerns, conflicts and any
other issues”. (App. 9a)
In December 2013, approximately nine months
after Ms. Knighton’s employment ended, the Cedarville
Rancheria established its Tribal Court and enacted
a Judicial Code. The Tribal Court, which included
a trial and appellate division, was created “for the
purpose of protecting and promoting tribal sovereignty,
strengthening tribal self-government, [and] providing
for the judicial needs of the Cedarville Rancheria.” (App.
9-10a) Tribal Court proceedings are governed by the
Federal Rules of Civil Procedure and Rules of Evidence,
and the Tribal Court can apply the laws of the Tribe
or any other tribe, as well as state or federal law; issue
orders and judgments; and award monetary damages and
injunctive relief. There is no right to a jury trial and all
proceedings are confidential.

8
The Cedarville Rancheria asserts that its Tribal
Court has jurisdiction over the immediate case pursuant
to Section 201 et. seq. of its Judicial Code. Section 201
provides that the Tribal Court has subject matter
jurisdiction over “[a]ll persons outside the exterior
boundaries of the Cedarville Rancheria Reservation
… within the jurisdiction of the Rancheria pursuant to
federal or tribal law, including all persons whose activity
on or off reservation threatens the Rancheria, government
or its membership,” and to “[a]ll other persons whose
actions involve or affect the Rancheria, or its members,
through commercial dealings, contracts, leases or other
arrangements.” The Code further provides that the Tribal
Court’s judicial power extends to “[a]ll civil causes of
action arising at common law including, without limitation,
all contract claims (whether the contract at issue is written
or oral or existing at law), all tort claims (regardless of
the nature), all property claims (regardless of the nature),
all insurance claims, and all claims based on commercial
dealing with the Band, its agencies, sub-entities, and
corporations chartered pursuant to its laws, and all
nuisance claims.” (App. 9-10a)
On February 20, 2014, former Tribal Chairperson,
Cherie Lash Rhoades, shot and killed four tribal members
during a Tribal Court proceeding1. (App. 42a) The shooter
and the victims were all linked to the instant dispute. As
Tribal Chairperson, Ms. Rhoades approved each of the
matters and things giving rise to the Tribe’s complaint
against Ms. Knighton. The case against Ms. Knighton was
the fifth confidential tribal court case.
1. The killings occurred during a court session. The events
made national news.

9
III. Procedural History
On October 2, 2014, the Cedarville Rancheria filed
its Complaint in Tribal Court against Ms. Knighton and
RISE. The lawsuit, captioned Cedarville Rancheria of
Northern Paiute Indians v. Duanna Knighton, et al.,
CED-CI-2014-00002, was only the fifth case to be heard
by the Tribal Court. (App. 78a) The complaint asserts
eight claims against Ms. Knighton: (1) fraud and deceit;
(2) recovery of unauthorized and excessive pension
payments; (3) recovery of unauthorized investment losses;
(4) breach of fiduciary duty; (5) aiding and abetting breach
of fiduciary duty; (6) unjust enrichment; (7) common
count-account stated; and (8) common count-money had
and received. The Cedarville Rancheria alleges that Ms.
Knighton fraudulently received higher compensation and
benefits than she was entitled to, made poor investments
on behalf of the tribe, and breached her fiduciary duty
when she involved herself in the sale of a building from
RISE to the tribe. (App. 11a)
On October 1, 2014, the Tribal Court ex parte issued
a restraining order and injunction against Ms. Knighton,
RISE, and Oppenheimer Funds, Inc., a financial fund
manager, freezing funds belonging to Ms. Knighton. The
Tribal Court, without any briefing nor argument, sua
sponte declared that it had jurisdiction over Ms. Knighton
and the claims asserted therein. On October 28, 2014, Ms.
Knighton filed a motion challenging the Tribal Court’s
jurisdiction, which the Tribal Court denied on March
11, 2015. (App. 12a) On February 24, 2015, RISE filed a
separate motion to dismiss.

10
On April 21, 2015, the parties agreed to stay the
lawsuit as to Ms. Knighton due to RISE’s pending motion.
The parties further stipulated that Ms. Knighton had fully
exhausted the Tribal Court procedures for challenging
tribal jurisdiction such that she could proceed with a
jurisdictional challenge in federal court. On April 29, 2015,
the Tribal Court stayed the case for all purposes as to Ms.
Knighton until it ruled on RISE’s motion to dismiss. The
Tribal Court also found that denial of Knighton’s motion
was not yet ripe for federal review because Ms. Knighton
had not appealed the issue to the Tribal Court of Appeals.
(App. 12a) On June 30, 2015, the Tribal Court granted
RISE’s motion to dismiss for lack of personal jurisdiction.
Knighton appealed the Tribal Court’s ruling on her
motion, on July 20, 2015, on the basis that the Tribal Court
lacked jurisdiction and the complaint must be dismissed
because RISE was an indispensable party whose joinder
was no longer feasible. On March 7, 2016, the Tribal Court
of Appeals affirmed the Tribal Court’s order denying
Ms. Knighton’s motion but remanded the indispensable
party issue to the Tribal Court to consider first. (App.
12a) Ms. Knighton filed a motion to dismiss for failure
to include RISE as an indispensable party. On June 29,
2016, the Tribal Court denied the motion in its entirety,
which Ms. Knighton appealed to the Tribal Court of
Appeals. On September 26, 2016, the Tribal Court stayed
the entire tribal case and vacated the appeal pursuant
to a stipulation between the parties. The parties further
stipulated that Ms. Knighton had exhausted her Tribal
Court remedies with respect to the lack of jurisdiction
and the indispensable party issues.

11
On October 12, 2016, Knighton filed a federal court
complaint for declaratory and injunctive relief against the
Cedarville Rancheria, Tribal Court, and Tribal Judge
Lenzi on the basis that the tribe lacks jurisdiction over
her and that the tribe’s lawsuit against her cannot proceed
due to the tribe’s failure to join RISE as an indispensable
party. (App. 12a) On December 16, 2016, the Respondents2
filed a motion to dismiss alleging, amongst other things,
that the Tribal Court had jurisdiction over Ms. Knighton
under Montana. On February 15, 2017, the District Court
granted Respondents’ motion to dismiss based on its
finding that under Water Wheel Camp Rec. Area, Inc. v.
Larance, 642 F.3d 802 (9th Cir. 2011), the tribe’s inherent
authority to exclude nonmembers from tribal land gave
it both regulatory and adjudicative authority over Ms.
Knighton. (App. 13a)
Ms. Knighton appealed the District Court’s order
and judgment to the Ninth Circuit. The Ninth Circuit
issued its original opinion on March 13, 2019, affirming
the judgment of the District Court. Ms. Knighton filed a
petition for rehearing. On April 24, 2019, the Ninth Circuit
issued its order granting the petition for rehearing and
issued a superseding opinion filed concurrently with that
order, continuing to affirm the judgment of the District
Court. (App. 1-32a)

2. The Cedarville Rancheria, the Tribal Court, and the
Tribal Court Judge are all represented by the same counsel,
attorney Jack Duran. Mr. Duran also represented the Cedarville
Rancheria in its complaint against Ms. Knighton in Tribal Court.

12
REASONS FOR GRANTING THE PETITIONER
As a citizen of the United States, Ms. Knighton should
be afforded the protections of Due Process of law. There is
absolutely no way Ms. Knighton could have consented to
tribal court jurisdiction during her employment, as there
was no judicial code nor a tribal court for the Cedarville
Rancheria. Holding otherwise eviscerates the reasonable
expectations of a defendant.
Moreover, this Court has never carte blanche held
that a tribal court may exert civil jurisdiction over
nonmembers. The issue was presented to the Court in
Plains Commerce Bank v. Long Family Land & Cattle
Co., 554 U.S. 316 (2008); however, the Court resolved that
matter on other grounds and left the uncertainty. That
uncertainty was raised in Dollar General Corporation
v. Miss. Band of Choctaw Indians, 136 S.Ct. 2159 (2016)
but an equally divided court precluded a decision. Thus,
the issue remains unresolved. This issue is of great
importance to citizens of the United States whom are
being haled into a foreign tribal court, as well as to the
Native American community so that it can properly define
its legislative and adjudicative authority.
Moreover, as the decision in this matter demonstrates,
the Ninth Circuit has created an all expansive civil tribal
court jurisdiction scheme whereby basically any contact
with a tribe or within tribal land will confer unlimited
civil jurisdiction upon a tribal court. The gravity of the
Ninth Circuits opinion herein is exponential, eviscerating
Due Process of nonmember citizens. A nonmember should
not be required to defend themselves in a secret tribunal,
without a jury, with potentially unknown and obscure

13
tribal laws, and risk millions in damages. There must be
conscious foreseeability of tribal court jurisdiction.
I.

This Case Squarely Presents The Issue Left Open
in Hicks and the Question The Court Granted
Certiorari To Decide, But Did Not, In Plains
Commerce Bank And Dollar General.

This case presents the Court with another opportunity
to finally resolve the question granted certiorari in Plains
Commerce Bank v. Long Family Land & Cattle Co., 554
U.S. 316 (2008) and in Dollar General Corporation v.
Miss. Band of Choctaw Indians, 136 S.Ct. 2159 (2016). As
stated above, the importance of resolving this question
cannot be understated for both non-Indians and for Native
American communities.
In Plains Commerce Bank, tribal members tried to
sue a nonmember bank in tribal court alleging various
torts. The Eighth Circuit concluded that the bank entered
into a consensual relationship with the tribal members,
thus falling within the Montana first exception. This Court
explained that the “existence of a consensual relationship
is not alone sufficient to support tribal jurisdiction.” Plains
Commerce at 316. Tribal authority must take the form
of taxation, licensing, or “other means” with respect to
nonmembers. The scope of “other means” was the issue
brought before this Court. Unfortunately, the Court did
not answer the question and it resolved the case on other
grounds. The Court, therefore, left unanswered whether
tribes may regulate nonmembers through tort lawsuits
brought within tribal court.

14
In Dollar General, the issue of tribal court jurisdiction
involving torts alleged by tribal members against a
nonmember arose again. Justice Scalia passed away after
oral argument, resulting in an equally divided court;
the question presented was unanswered still. This case
presents the Court with another opportunity to finally
resolve the questions left unanswered in Plains Commerce
and Dollar General.
Further, this case presents the opportunity for
this court to set a national standard as to tribal court
jurisdiction, whereas, the Ninth Circuit’s decision herein
has created basically an all-expansive tribal court
jurisdiction model for tort matters between a tribe and a
nonmember which is at odds with several other circuits
and this Court. The decision below completely foregoes
Due Process and the fundamental fairness measures of
having advance notice of tribal court processes, laws, and
remedies. The Untied States government is not permitted
to legislate and then ex post facto impose those regulations
upon its citizens. Why should the Cedarville Rancheria
be permitted to ex post facto create a judicial code and
impose a tribal court process upon a nonmember whom
could not have conceivable consented in any fashion to any
such jurisdiction? The Cedarville Rancheria should not be
permitted to do so.
The breadth of application of the Ninth Circuit’s
decision is dramatic and affects every non-Indian in this
country. It subjects nonmembers to jurisdiction involving
unwritten laws and customs to be exclusively determined
and applied by the tribe. It subjects nonmembers to defend
themselves in a secretive forum. It subjects nonmembers
to defend themselves before a tribal court without a jury.

15
In this case, the tribal court judge was selected and paid
by the twelve adult members of the Cedarville Rancheria
whom have brought this action. Further, the tribal court
and its judge is represented by the same counsel whom
also represents the Cedarville Rancheria in its tort
complaint against Ms. Knighton.
It should also be remembered that the Cedarville
Rancheria is not left without a forum to pursue its claims.
It may pursue its claims in either California state court
or federal court. These are jurisdictions in which Ms.
Knighton has consented; these are jurisdiction that offer
the fundamental rights of open courts and trial by jury;
these jurisdictions comport with fundamental fairness
encompassed by Due Process.
II. Absent Congressional Authorization, Tribal Courts
Have No Jurisdiction to Adjudicate Tort Claims
Against Nonmembers, And Any Adjudicative
Authority Cannot Exceed Its Legislative Authority.
The Ninth Circuit’s decision in this case is wrong.
Tribal courts lack jurisdiction to adjudicate private tort
claims against nonmembers. Their adjudicative authority
cannot exceed their legislative authority. In all three
Supreme Court cases addressing tribal adjudicative
jurisdiction over nonmembers (Strate, Hicks and Plains
Commerce Bank), a tribe’s adjudicative jurisdiction may
not exceed its regulatory jurisdiction. Water Wheel, 642
F.3d at 814.
As the petition for writ of certiorari in Dollar
General squarely pointed out, “This Court has rightly
questioned whether tribal courts should ever be deemed

16
to have jurisdiction over nonmembers without Congress’s
authorization….” Dollar General Petition for Writ Of
Certiorari at pages 18-20. The general rule is clear,
tribal courts do not have jurisdiction over nonmembers.
The Montana exceptions are “limited ones and cannot
be construed in a manner that would swallow the rule
or severely shrink it.” Plains Commerce Bank, 554 U.S.
at 330. This Court has “emphasized repeatedly in this
context, when it comes to tribal regulatory authority, it
is not ‘in for a penny, in for a Pound.’” Plains Commerce
Bank, 554 U.S. at 338 (quoting Atkinson Trading Co. v.
Shirley, 532 U.S. 645, 656 (2001). The Montana exceptions
must be construed to avoid “the risk of subjecting
nonmembers to tribal regulatory authority without
commensurate consent.” Plains Commerce Bank, 554
U.S. at 337.
Here there was absolutely no tribal court regulation
nor authority during Ms. Knighton’s employment because
there was no judicial code, nor was there a tribal court.
There was no way for Ms. Knighton to have discerned or
agreed to any tribal tort laws and remedies because they
did not exist.
Under the second Montana exception, a tribe retains
no civil authority over the conduct of nonmembers unless
“that conduct threatens or has some direct effect on the
political integrity, the economic security, or the health
or welfare of the tribe.” Plains Commerce Bank, 554
U.S. at 320, citing Montana, 450 U.S. at 566. Despite its
broad phrasing, the second Montana exception has been
narrowly construed by the courts.
Read in isolation, the Montana rule’s second

17
exception can be misperceived. Key to its proper
application, however, is the Court’s preface:
Indian tribes retain their inherent power [to
punish tribal offenders,] to determine tribal
membership, to regulate domestic relations
among members, and to prescribe rules of
inheritance for members. . . . But [a tribe’s
inherent power does not reach] beyond what is
necessary to protect tribal self-government or
to control internal relations. Strate, 520 U.S. at
459, citing Montana, 450 U.S. at 564 (internal
quotation marks omitted).
Jurisdictional analysis requires an examination of the
specific conduct a tribe’s legal claims seek to regulate.
“Each claim must be analyzed individually in terms of the
Montana principles to determine whether the tribal court
has subject matter jurisdiction over it.” Attorney’s Process
& Investigation Servs. v. Sac & Fox Tribe, 609 F.3d at
930. For the second exception to apply, the conduct alleged
“must do more than injure the tribe, it must imperil the
subsistence of the tribal community.” Plains Commerce
Bank, 554 U.S. at 341 (internal quotation marks omitted).
At least one court has found that employment disputes do
not fall under the second Montana exception. In Atkinson
Trading Co. v. Manygoats, No. CIV 02-1556-PCT-SMM,
2004 U.S. Dist. LEXIS 31789,*31 (D. Ariz. Mar. 16, 2004),
the court held that “while employment matters concerning
tribal members are certainly related to the economic
security and welfare of the tribe, they do not have a
substantial impact on the tribe as a whole.” The dispute
the Cedarville Rancheria has with Ms. Knighton was an
employment dispute. The matters complained of all arise
out of her employment with the tribe. Accordingly, neither

18
prong of Montana is applicable in this case.
III. The Ninth Circuit Has Created Conf licting
Precedent That Basically Provides For Limitless
Tribal Court Jurisdiction
Under Ninth Circuit precedent, two frameworks exist
for determining whether a tribe has jurisdiction over a
lawsuit involving a nonmember defendant: (1) The two
exceptions articulated in Montana v. United States, 450
U.S. 544 (1981), and (2) the right of a tribe to exclude nontribal members from tribal land. Window Rock Unified
Sch. Dist. v. Reeves, 861 F.3d 894 (9th Cir. 2017)
The Ninth Circuit’s recent decisions in Water Wheel,
642 F.3d 802, Grand Canyon Skywalk Dev., LLC v. ‘SA’
Nyu Wa Inc, 715 F.3d 1196 (2013), and Window Rock
Unified Sch. Dist. v. Reeves, 861 F.3d 894, 917 (9th Cir.
2017) signify a break from application of the limited
Montana framework. As noted by the dissent in Window
Rock, the Ninth Circuit is the only federal circuit court
that has narrowly interpreted Hicks “to mean that the
Montana framework need not be applied to questions of
tribal jurisdiction over nonmembers in the absence of
competing state interests,” an interpretation which the
Window Rock dissent argues is further narrowed in that
case. Window Rock Unified Sch. Dist. v. Reeves, 861 F.3d
894, 917 (9th Cir. 2017). No case law, from any circuit,
supports such a narrow application of Hicks.
The Eighth and Tenth Circuits have broadly
interpreted Hicks, repeatedly holding that the Montana
analysis applies to the question of tribal court jurisdiction
over a nonmember defendant irrespective of whether the

19
claim arose on tribal land. In MacArthur v. San Juan Cty.,
497 F.3d 1057 (10th Cir. 2007), the Tenth Circuit found
that Hicks “put to rest” the notion that whether Montana
applies depends on whether the conduct at issue occurred
on tribal land. Similarly, post-Hicks, the Eighth Circuit
has moved toward analyzing tribal jurisdiction based
on the membership status of the litigants, with location
becoming one of several factors in determining whether
Montana’s “harm to tribe” exception applies. See Nord
v. Kelly, 520 F.3d 848 (8th Cir. 2008); Attorney’s Process
and Investigation Servs. v. Sac & Fox Tribe, 609 F.3d 927
(8th Cir. 2010). See also Jacob R. Masters, Off the Beaten
Path? The Ninth Circuit’s Approach to Tribal Courts’ Civil
Jurisdiction over Nonmember Defendants, 38 Am. Indian
L. Rev. 187, 204-207 (2013).
In Stifel v. Lac DU Fambeau Band of Lake Superior
Chippewa Indians, 807 F.3d 184 (7th Cir. 2015), the
Seventh Circuit rejected the Ninth Circuit’s approach
of limiting Montana to cases involving non-Indian land
and disagreed that land ownership should be considered
a threshold or determinative factor. The court held that
the Supreme Court’s holding in Plains Commerce Bank
“leaves no doubt that Montana applies regardless of
whether the actions take place on fee or non-fee land.”
Stifel at 207.
In the present case, the Ninth Circuit expanded
tribal court jurisdiction even further. The Ninth Circuit
now holds that tribal court civil jurisdiction is conferred
“over nonmembers on tribal land…from its inherent
sovereign power to protect self-government and control
internal relations.” App A, page 5. The Ninth Circuit
further stated, “According, we now hold that under the

20
circumstances presented here, the tribe has authority
to regulate the nonmember employee’s conduct at issue
pursuant to its inherent power to exclude nonmembers
from tribal lands.” (pg 5.) Even though the underlying case
against Ms. Knighton has no connection, whatsoever, to
excluding individuals from tribal lands, that “authority”
somehow now confers unrestricted adjudicative authority
to any and all torts. This holding is in conflict with other
circuits and with the opinions of this Court.
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.
Respectfully submitted,
Patrick L. Deedon
Counsel for Record
Maire & Deedon
2851 Park Marina Drive, Suite 300
Redding, CA 96001
(530) 246-6050
pdeedon@maire-law.com
July 23, 2019

Counsel for Petitioner

APPENDIX

1a
Appendix
A OPINION OF THE
APPENDIX A — ORDER
AND
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT, FILED APRIL 24, 2019
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-15515
D.C. No. 2:16-cv-02438-WHO
DUANNA KNIGHTON,
Plaintiff-Appellant,
v.
CEDARVILLE RANCHERIA OF NORTHERN
PAIUTE INDIANS; CEDARVILLE RANCHERIA
TRIBAL COURT; PATRICIA R. LENZI, IN
HER CAPACITY AS CHIEF JUDGE OF THE
CEDARVILLE RANCHERIA TRIBAL COURT,
Defendants-Appellees.
Appeal from the United States District Court
for the Eastern District of California
William Horsley Orrick, District Judge, Presiding
November 16, 2018, Argued and Submitted,
San Francisco, California
April 24, 2019, Filed
ORDER AND OPINION

2a
Appendix A
Before: A. Wallace Tashima and Milan D. Smith, Jr.,
Circuit Judges, and Lawrence L. Piersol,*
District Judge.
Opinion by Judge Piersol
SUMMARY**
Tribal Jurisdiction
The panel filed (1) an order granting a petition for
panel rehearing and withdrawing its opinion filed March
13, 2019; and (2) a superseding opinion affirming the
district court’s dismissal of an action challenging a tribe’s
subject matter jurisdiction over tort claims brought by the
tribe against a nonmember employee.
The tort claims arose from conduct committed by
the nonmember on tribal lands during the scope of
her employment. At issue was whether the tribal court
had jurisdiction to adjudicate tribal claims against its
nonmember employee, where the tribe’s personnel policies
and procedures manual regulated the nonmember’s
conduct at issue and provided that the tribal council would
address violations by the nonmember during the course
of her employment, and the tribal court and tribal judicial
code were established and enacted after the nonmember
left her employment with the tribe.
* The Honorable Lawrence L. Piersol, United States District
Judge for the District of South Dakota, sitting by designation.
** This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.

3a
Appendix A
The panel held that a tribe’s regulatory power over
nonmembers on tribal land derives both from the tribe’s
inherent sovereign power to exclude nonmembers from
tribal land and from the tribe’s inherent sovereign power
to protect self-government and control internal relations.
The panel held that the tribe had authority to regulate
the nonmember employee’s conduct at issue pursuant
to its sovereign exclusionary power. Alternatively, the
tribe had regulatory authority under both Montana
exceptions, which allow a tribe (1) to regulate the activities
of nonmembers who enter consensual relationships with
the tribe or its members and (2) to exercise civil authority
over the conduct of nonmembers on fee lands within its
reservation when that conduct threatens or directly affects
the political integrity, the economic security, or the health
or welfare of the tribe. The panel concluded that the tribe’s
personnel manual regulated the employee’s conduct,
and the fact that the tribe later sought to adjudicate its
claims in tribal court did not undermine the tribal court’s
jurisdiction. Given the existence of regulatory authority,
the sovereign interests at stake, and the congressional
interest in promoting self-government, the tribal court
had jurisdiction over the tribe’s tort claims.
OPINION
PIERSOL, Senior District Judge:
This case concerns the sources and scope of an Indian
tribe’s jurisdiction over tort claims brought by the tribe
against a nonmember employed by the tribe. The tort
claims arose from conduct committed by the nonmember
on tribal lands during the scope of her employment.

4a
Appendix A
The question presented is whether the tribal court
has jurisdiction to adjudicate tribal claims against its
nonmember employee, where the tribe’s personnel policies
and procedures manual regulated the nonmember’s
conduct at issue and provided that the tribal council would
address violations by the nonmember during the course
of her employment, and the tribal court and tribal judicial
code were established and enacted after the nonmember
left her employment with the tribe.
We previously held that a tribe’s inherent sovereign
power to exclude nonmembers from tribal land is an
independent source of regulatory power over nonmember
conduct on tribal land. See Water Wheel Camp Recreational
Area, Inc. v. LaRance, 642 F.3d 802, 814 (9th Cir. 2011)
(per curiam) (stating that where the nonmember activity
occurred on tribal land, and when there are no competing
state interests at play, “the tribe’s status as landowner
is enough to support regulatory jurisdiction without
considering Montana [v. United States, 450 U.S. 544,
101 S. Ct. 1245, 67 L. Ed. 2d 493 (1981)]”). Today we also
observe that a tribe’s regulatory power over nonmembers
on tribal land does not solely derive from an Indian tribe’s
exclusionary power, but also derives separately from its
inherent sovereign power to protect self-government
and control internal relations. See Montana, 450 U.S.
at 564 (stating that Indian tribes retain their inherent
sovereign power to protect tribal self-government and to
control internal relations); see also Merrion v. Jicarilla
Apache Tribe, 455 U.S. 130, 144-45, 102 S. Ct. 894, 71 L.
Ed. 2d 21 (1982) (holding that the tribe’s authority to tax
nonmember mining and drilling on tribal land derived

5a
Appendix A
from its inherent power to govern and pay for the costs
of self-government and stating that such regulations were
also within the tribe’s inherent power to condition the
continued presence of nonmembers on tribal land).
Accordingly, we now hold that under the circumstances
presented here, the tribe has authority to regulate the
nonmember employee’s conduct at issue pursuant to
its inherent power to exclude nonmembers from tribal
lands. We also hold, in the alternative, that the tribe has
regulatory authority over the nonmember employee’s
conduct under both Montana exceptions. Given the
existence of regulatory authority, the sovereign interests
at stake, and the congressional interest in promoting tribal
self-government, we conclude that the tribal court has
jurisdiction over the tribe’s claims in this case.
FACTUAL AND PROCEDURAL BACKGROUND
I.

Factual Background

The facts as presented and analyzed here are based on
the allegations included in the original complaint filed in
tribal court, and not upon the conclusions of a fact finder.
A.

The Cedarville Rancheria Tribe

The Cedarville Rancheria of Northern Paiute Indians
(“the Tribe”) is a federally recognized Indian tribe that
has approximately twelve voting members and operates
a 17-acre Rancheria in Cedarville, California (“the
Rancheria”). The Rancheria is held in trust for the Tribe

6a
Appendix A
by the United States government. During the latter part
of events at issue in this case, the Tribe’s administrative
offices were relocated from the Rancheria to land held in
fee1 by the Tribe in Alturas, California.
The Tribe’s governing body is the Community Council,
which is composed of all qualified voters of the Rancheria
who are 18 years of age or older. Every three years, the
Community Council elects three of its members to serve on
the Executive Committee—the Tribal Chairperson, Vice
Chairperson, and Secretary. The Executive Committee
enforces the Community Council’s ordinances and other
enactments and represents the Tribe in negotiations with
tribal, federal, state, and local governments.
B. Knighton’s Employment with the Tribe
Duanna Knighton (“Knighton”) was employed by the
Tribe from July 1996 until she resigned in March 2013.
Knighton is not a member of the Tribe and had never
resided on or owned land within the Rancheria. At the time
of her resignation, Knighton’s position was that of Tribal
Administrator. As Tribal Administrator, she oversaw the
day-to-day management of the Rancheria, its personnel,
and many aspects of its finances.
During Knighton’s employment, the Tribe regulated
its employees pursuant to the Cedarville Rancheria
Personnel Policies and Procedures Manual (“the Personnel
1. Pending with the Bureau of Indian Affairs is a petition by
the Tribe to place the property on which the Tribe’s administrative
offices are now located in trust with the United States government.

7a
Appendix A
Manual”). The Personnel Manual regulated employee
conduct including, but not limited to: misfeasance and
malfeasance in the performance of duty, incompetency
in the performance of job duties, theft, carelessness or
negligence with the monies or property of the Rancheria,
inducement of an employee to act in violation of Rancheria
regulations, and violation of personnel rules. Disciplinary
actions for an employee’s breach of rules and standards
of conduct in the course of employment specified in the
Personnel Manual included a verbal warning, written
reprimand, suspension without pay, demotion, and
involuntary termination.
The Personnel Manual provided that where the Tribal
Administrator was the subject of disciplinary action, the
Community Council directly oversaw the disciplinary
process.
C.

Knighton’s Employment with RISE

From 2009 until at least 2016, in addition to her
position as Tribal Administrator, Knighton was also
serving as an employee or officer of Resources for Student
Education (“RISE”), a California nonprofit, that provides
education services and programs to Indian children. RISE
is not a tribally created or licensed business entity, and it
receives the majority of its funding from state and federal
grants and private donations.
D.

The Tribe’s Purchase of RISE Property

In mid-2009, Knighton, acting in her capacity as
Tribal Administrator, negotiated the Tribe’s purchase

8a
Appendix A
from RISE of a building in Alturas, California, where the
Tribe’s administrative offices are now located. During this
time, Knighton was also an employee or agent of RISE.
Knighton initially recommended that the Tribe
purchase the building for $350,000, allegedly representing
that such a price was below market value even though she
had not received a professional appraisal of the property.
The Tribe later discovered that the $350,000 purchase
price recommended by Knighton was $200,000 above
market value. Knighton also represented to the Tribe that
it could pay off its building loan within five years after the
purchase and that RISE would pay rent to the Tribe for
its occupancy until the note on the building was paid off.
The Tribe asserts that at no time during the purchase
negotiations did Knighton disclose she had a conflict of
interest representing both RISE and the Tribe in the
sale, that RISE was close to insolvency, or that she had
an agreement with RISE to split the proceeds of the
building sale. The parties settled on a purchase price of
$300,000. Within twelve months of the sale, RISE moved
its business operations out of the building.
E. Knighton’s Resignation
Before Knighton resigned in March 2013 as Tribal
Administrator, she allegedly cashed out $29,925 in
vacation and sick pay in violation of the Tribe’s policies
and procedures. The Tribe issued a check in the amount
of $29,925, payable to RISE on Knighton’s behalf. The
Tribal Vice Chairman approved Knighton’s request to

9a
Appendix A
cash out based on her representation that her request had
been approved by the Tribal Chairperson, when in fact,
the Tribal Chairperson had denied Knighton’s request.
When Knighton resigned in March 2013, she took with
her all files, including files belonging to the Tribe, room
furnishings, and a computer, representing to the Tribe
that the property removed belonged to RISE.
In late 2013, the Tribe wrote a letter to RISE
demanding the return of the $29,925 and any and all
tribal property, including the computer. Both RISE and
Knighton refused through their counsel to return the
funds or any of the property.
F.

Creation of Constitution, Tribal Judicial Code,
and Tribal Court

In February 2011, while Knighton was still employed
by the Tribe, the Tribe’s voting membership adopted the
Constitution and Bylaws of the Cedarville Rancheria,
which was approved by the Regional Director of the
Bureau of Indian Affairs. Article II of the Tribe’s
Constitution provides that the “jurisdiction of [the Tribe]
shall extend to the land now within the confines of the []
Rancheria and to such other lands as may thereafter be
added thereto.”
In December 2013, nine months after Knighton’s
resignation, the Tribe enacted the Cedarville Rancheria
Judicial Code (“the Tribal Judicial Code”) and established
the Cedarville Rancheria Tribal Court, which consists of

10a
Appendix A
a tribal court (“the Tribal Court”) and a tribal court of
appeals (“the Tribal Court of Appeals”). All judges must
be lawyers experienced in the practice of tribal and federal
Indian law and licensed to practice in the highest court
of any state. Judges cannot be the Tribal Administrator,
Assistant Clerks, or members of the Executive Committee.
The Tribal Judicial Code provides that the Tribal Court
and Tribal Court of Appeals have jurisdiction over all
civil causes of action that arise within the boundaries of
the Rancheria. Pursuant to the Tribal Judicial Code, the
Tribal Court has the power to issue orders and judgments
and to award limited money damages.
G. The Tribe’s Audit Findings
In early 2014, after Knighton resigned, the Tribe
conducted a forensic accounting of the Tribe’s financial
position. The Tribe alleges that the forensic accounting
came about after the former Tribal Chairperson shot and
killed four tribal members at an Executive Committee
meeting on February 20, 2014. The slain Tribal Chairman
was a vocal critic of Knighton’s performance. He was
among those killed by his sister. During this accounting,
the Tribe reviewed its annual audit reports dating back to
2005 and found that the reports detailed several material
weakness findings by the auditor. The auditor’s findings
noted major deficiencies in the accounting of the Tribe’s
finances, which Knighton oversaw, and noted that the
Tribe had not adopted a policy regarding the investment
of tribal funds. The Tribe also discovered that in 2008,
an annual audit of the Tribe’s finances showed that
$3.07 million of the Tribe’s money had been invested by

11a
Appendix A
Knighton in high-risk investments, which had declined in
value by more than $1.2 million by the end of 2008. The
Tribe also discovered that tribal funds belonging to the
Tribe’s children had been co-mingled with funds invested
on behalf of adults, resulting in improper taxation.
The Tribe asserts that the annual audit reports, and
the material weakness findings and investment losses
detailed therein, had not been provided by Knighton to
the Tribe and were only discovered by the Tribe after
Knighton’s resignation.
II. Procedural Background
The Tribe filed a complaint in the Tribal Court
against Knighton, RISE, and Oppenheimer Funds,
Inc. 2 The complaint included claims for fraud and
deceit, recovery of unauthorized and excessive pension
payments, breach of fiduciary duty, aiding and abetting
breach of fiduciary duty, and unjust enrichment, common
count-account stated, and common count-money had and
received. In support of its claims, the Tribe alleged that
Knighton improperly manipulated the Tribe’s policies
and procedures to provide her salary and fringe benefits,
including a pension in excess of what would normally be
paid to a Tribal Administrator for a like-sized tribe. The
Tribe also alleged that Knighton invested its money in
high-risk investments without the appropriate authority,
and attempted to enter financial agreements without
2. RISE and Oppenheimer Funds, Inc. are no longer parties
in this lawsuit.

12a
Appendix A
appropriate authorization or waivers of tribal sovereign
immunity.
Knighton responded by filing a motion to dismiss,
claiming, in relevant part, that the Tribal Court lacked
subject matter jurisdiction under Montana v. United
States.
The Tribal Court denied Knighton’s motion to dismiss,
finding that it had jurisdiction over the Tribe’s claims
against Knighton under both Montana exceptions because
Knighton entered into a consensual relationship with
the Tribe, by virtue of her employment with the Tribe,
and because Knighton’s conduct threatened or had a
direct effect on the political integrity, economic security,
and health and welfare of the Tribe. The Tribal Court’s
decision was affirmed by the Tribal Court of Appeals, but
the case was remanded to the Tribal Court to determine
whether RISE was an indispensable party to the suit,
following a finding that the issue had not been raised in
the Tribal Court.
On remand, pursuant to a stipulation between
the parties, the Tribal Court stayed the case to allow
Knighton to contest in federal district court the Tribal
Court’s jurisdiction over the Tribe’s asserted claims. As
a result of the stay, there is no Tribal Court exhaustion
issue in this case.
Knighton filed a lawsuit in federal district court
seeking, among other things, a declaratory judgment that
the Tribal Court lacks subject matter jurisdiction over

13a
Appendix A
the Tribe’s claims against Knighton under both Montana
exceptions, and a permanent injunction against further
proceedings in the Tribal Court. The defendants moved to
dismiss Knighton’s complaint on the basis that the Tribal
Court’s jurisdiction over the Tribe’s claims was proper
under both Montana exceptions.
The district court ruled that the Tribal Court has
subject matter jurisdiction over the Tribe’s claims, and
granted defendants’ motion to dismiss. The district court
declined to apply Montana in its jurisdictional analysis
based on its finding that Knighton’s alleged conduct
occurred either on tribal land within the Rancheria’s
borders or was closely related to tribal land. The district
court stated that under Water Wheel, the Montana
framework did not apply to jurisdictional issues involving
nonmember conduct on tribal land. The district court
concluded that the Tribe had authority to regulate
Knighton’s conduct because “Knighton’s employment
activities directly affected the Tribe’s inherent powers
to protect the welfare of its members and preserve the
integrity of its government” and because “her conduct
threatened the Tribe’s very economic survival,” and held
that the Tribal Court had jurisdiction to adjudicate the
Tribe’s claims.
Knighton appealed.
JURISDICTION AND STANDARD OF REVIEW
We have jurisdiction under 28 U.S.C. § 1291. The
question of tribal court jurisdiction is a question of federal

14a
Appendix A
law, which we review de novo, with factual findings
reviewed for clear error. Smith v. Salish Kootenai Coll.,
434 F.3d 1127, 1130 (9th Cir. 2006) (en banc).
ANALYSIS
“To exercise its inherent civil authority over a
defendant, a tribal court must have both subject matter
jurisdiction—consisting of regulatory and adjudicative
jurisdiction—and personal jurisdiction.” Water Wheel,
642 F.3d at 809. At issue in this case is whether the Tribal
Court has subject matter jurisdiction over the Tribe’s
claims against Knighton.
I.

Regulatory Jurisdiction
A.

Legal Precedent and This Case

“The sovereignty that the Indian tribes retain
is of a unique and limited character. It exists only at
the sufferance of Congress and is subject to complete
defeasance. But until Congress acts, the tribes retain their
existing sovereign powers.” United States v. Wheeler,
435 U.S. 313, 323, 98 S. Ct. 1079, 55 L. Ed. 2d 303 (1978).
“Indian tribes still possess those aspects of sovereignty
not withdrawn by treaty or statute, or by implication
as a necessary result of their dependent status.” Id. In
National Farmers Union Insurance Cos. v. Crow Tribe
of Indians, the Court recognized that “[t]he tribes also
retain some of the inherent powers of the self-governing
political communities that were formed long before
Europeans first settled in North America.” 471 U.S. 845,

15a
Appendix A
851, 105 S. Ct. 2447, 85 L. Ed. 2d 818 (1985) (citing White
Mountain Apache Tribe v. Bracker, 448 U.S. 136, 142, 100
S. Ct. 2578, 65 L. Ed. 2d 665 (1980); Santa Clara Pueblo v.
Martinez, 436 U.S. 49 55-56, 98 S. Ct. 1670, 56 L. Ed. 2d
106 (1978)). The Court went on to say that under 28 U.S.C.
§ 1331, a federal court may determine “whether a tribal
court has exceeded the lawful limits of its jurisdiction.”
Id. at 853. Thus, the outer boundaries of tribal court
jurisdiction are a matter of federal common law.
We have noted that the Court has long recognized
that as part of their residual sovereignty, tribes retain
the inherent power to exclude nonmembers from tribal
lands. See Water Wheel, 642 F.3d at 808; see also New
Mexico v. Mescalero Apache Tribe, 462 U.S. 324, 333,
103 S. Ct. 2378, 76 L. Ed. 2d 611 (1983) (“A tribe’s power
to exclude nonmembers entirely or to condition their
presence on [tribal land] is [] well established.”). “From
a tribe’s inherent sovereign powers flow lesser powers,
including the power to regulate [nonmembers] on tribal
land.” Water Wheel, 642 F.3d at 808-09 (citing South
Dakota v. Bourland, 508 U.S. 679, 689, 113 S. Ct. 2309,
124 L. Ed. 2d 606 (1993)).
The Court has made clear, however, “that once
tribal land is converted into fee simple [land], the tribe
loses plenary jurisdiction over it . . . . As a general rule,
then ‘the tribe has no authority itself, by way of tribal
ordinance or actions in the tribal courts, to regulate
the use of fee land.’” Plains Commerce Bank v. Long
Family Land & Cattle Co., 554 U.S. 316, 328-29, 128 S.
Ct. 2709, 171 L. Ed. 2d 457 (2008) (quoting Brendale v.

16a
Appendix A
Confederated Tribes & Bands of Yakima Indian Nation,
492 U.S. 408, 430, 109 S. Ct. 2994, 106 L. Ed. 2d 343
(1989) (plurality opinion)). In Montana v. United States,
the Court recognized two exceptions to this general rule.
First, “[a] tribe may regulate, through taxation, licensing,
or other means, the activities of nonmembers who enter
consensual relationships with the tribe or its members,
through commercial dealing, contracts, leases, or other
arrangements.” Montana, 450 U.S. at 565. Second, a
tribe may exercise civil authority over the conduct of
nonmembers on fee lands within its reservation when
“that conduct threatens or has some direct effect on the
political integrity, the economic security, or the health or
welfare of the tribe.” Id. at 566.
“Since deciding Montana, the Supreme Court has
applied those exceptions almost exclusively to questions
of jurisdiction arising on [non-tribal] land.” Water Wheel,
642 F.3d at 809. The exception is Nevada v. Hicks, 533
U.S. 353, 121 S. Ct. 2304, 150 L. Ed. 2d 398 (2001). Water
Wheel, 642 F.3d at 809. In Hicks, the Court addressed
a tribal court’s jurisdiction over claims against state
officers arising from the execution of a search warrant
on tribal land for alleged violations of state poaching
laws—specifically, the killing of bighorn sheep off the
reservation. 533 U.S. at 356-57. Both the state court
and then the tribal court issued search warrants. Id. at
356. The Court stated that although ownership status
of the land “may sometimes be a dispositive factor” in
determining a tribe’s authority to regulate nonmember
activity on tribal land, the tribe’s power to exclude
nonmembers from tribal land was “not alone enough to

17a
Appendix A
support” the tribe’s regulatory jurisdiction over the state
officers’ activities when the state had a competing interest
in executing a warrant for an off-reservation crime. Id.
at 360. The Court applied Montana and concluded that
“tribal authority to regulate state officers in executing
process related to the violation, off reservation, of state
laws is not essential to tribal self-government or internal
relations” while “[t]he State’s interest in execution of
process is considerable.” Id. at 364.
Although some jurisdictions have interpreted Hicks
as eliminating the right-to-exclude framework as an
independent source of regulatory power over nonmember
conduct on tribal land, we have declined to do so. In Water
Wheel, we observed that Hicks “expressly limited its
holding to ‘the question of tribal-court jurisdiction over
state officers enforcing state law.’” Water Wheel, 642
F.3d at 813 (quoting Hicks, 533 U.S. at 358 n.2). Indeed,
the Hicks Court specifically “le[ft] open the question of
tribal-court jurisdiction over nonmember defendants in
general.” Hicks, 533 U.S. at 358 n.2. In Water Wheel,
we held that a “tribe’s status as landowner is enough to
support regulatory jurisdiction” except “when the specific
concerns at issue [in Hicks] exist.” 642 F.3d at 813. “Doing
otherwise would impermissibly broaden Montana’s scope
beyond what any precedent requires and restrain tribal
sovereign authority despite Congress’s clearly stated
federal interest in promoting tribal self-government.”
Id. at 813.
In Hicks, the defendants were state officers enforcing
a state-court-issued search warrant, so there was a

18a
Appendix A
significant state interest at stake. By contrast, the
present case involves a private, consensual employment
relationship between Knighton and the Tribe, which
occurred primarily on tribal land. There are no significant
competing state interests, as in Hicks. Accordingly, our
Water Wheel precedent compels the conclusion that the
Tribe possesses regulatory jurisdiction over its claims
against Knighton.
Since Hicks’s limited holding, the Court in Plains
Commerce Bank held that a tribal court did not have
jurisdiction to adjudicate a discrimination claim
concerning a non-Indian defendant’s sale of fee land.
Plains Commerce Bank, 554 U.S. at 323, 340-41. The land
in question was sold as part of the 1908 Allotment Act and
was owned by a non-Indian party for at least 50 years. Id.
at 331, 341. The Court found that the discrimination law
that the plaintiffs were attempting to enforce operated as
a restraint on alienation and had the effect of regulating
the substantive terms on which the non-Indian bank was
able to offer its fee land for sale. Id. at 331. The Court
stated that while “Montana and its progeny permit tribal
regulation of nonmember conduct inside the reservation
that implicates the tribe’s sovereign interests,” that case
“does not permit Indian tribes to regulate the sale of nonIndian fee land,” as neither of the Montana exceptions
applies. Id. at 332. By contrast, in the present case the
nonmember defendant while on tribal land allegedly used
her position as Tribal Administrator to violate the terms
of her employment in a wide variety of ways that were
significantly detrimental to the management and financial
security of the Tribe.

19a
Appendix A
B. Appellant’s Arguments
Knighton argues that treating ownership status of the
land as a dispositive factor in upholding a tribe’s power
to regulate nonmember conduct on tribal land (unless, as
in Hicks, there are significant state interests present) is
contrary to our prior rulings in McDonald v. Means, 309
F.3d 530 (9th Cir. 2002), and Smith v. Salish Kootenai
College. We disagree. In McDonald, we specifically
recognized that a tribe’s jurisdiction over civil claims
against nonmembers arising on tribal land is limited under
Hicks only in cases where significant state interests are
present. See 309 F.3d at 540. And in Window Rock Unified
School District v. Reeves, 861 F.3d 894, 902 n.9 (9th Cir.
2017), we concluded that Smith did not limit a tribe’s
jurisdiction over civil claims against nonmembers bearing
a direct connection to tribal land. We concluded that Smith
was distinguishable because it involved a nonmember
plaintiff, as opposed to a nonmember defendant, who had
entered into a consensual relationship with the tribe by
filing his action in tribal court. Id.
Knighton’s argument that a tribe’s regulatory power
over nonmember conduct on tribal land is limited to
conduct that directly interferes with a tribe’s inherent
powers to exclude and manage its own lands is also
unavailing. In Window Rock, we concluded that the tribal
court’s jurisdiction over employment-related claims
that did not involve access to tribal land was plausible;
accordingly, we held that the nonmember defendants were
required to exhaust their tribal court remedies before
proceeding in federal court. Id. at 896, 906. Moreover,

20a
Appendix A
limiting a tribe’s regulatory power over nonmember
conduct to that which directly interferes with a tribe’s
inherent powers to exclude and manage its own lands,
as Knighton suggests, would restrict tribal sovereignty
absent explicit authorization from Congress—an approach
we specifically rejected in Water Wheel. See 642 F.3d at
812 (stating that the tribe’s right to exclude nonmembers
from tribal land includes the power to regulate them
“unless Congress has said otherwise, or unless the
Supreme Court has recognized that such power conflicts
with federal interests promoting tribal self government”).
Knighton also argues that under the facts of this
case, Water Wheel’s right-to-exclude framework is
inapplicable because some of her alleged misconduct
occurred off tribal land, after the tribal administrative
offices were relocated to fee land owned by the Tribe.
Although the Tribe’s complaint does not allege precisely
where the conduct at issue occurred, most of the claims
alleged against Knighton involve conduct that took place
on tribal land, before the Tribe’s administrative offices
were moved in mid-2009 to the RISE building in Alturas,
California. Moreover, the facts of this case are unique in
that any claims that may have arisen outside tribal land
are based on alleged misconduct and misrepresentations
made by Knighton on tribal land. See Smith, 434 F.3d
at 1135 (stating that jurisdictional inquiry is not limited
to deciding precisely when and where the claim arose,
but whether it bears some direct connection to tribal
lands). For example, the $29,925 overpayment for unused
vacation and sick leave that the Tribe seeks to recover
stems from misrepresentations that Knighton allegedly
made throughout the course of her employment, before

21a
Appendix A
the Tribe’s administrative offices relocated. In addition,
the relocation of the Tribe’s administrative offices from
tribal land to the RISE building on tribal fee land was
allegedly due to misrepresentations by Knighton.
Knighton further argues that even if the Tribe had the
power to regulate her conduct on tribal land during the
course of her employment under Water Wheel’s right-toexclude framework, the Tribe’s authority is limited to the
regulations that were in place during her employment—
which is to say, those provided for in the Personnel Manual.
Knighton contends that the Tribe is attempting to impose
new regulations on her through tort law after she left her
employment with the Tribe.
A tribe’s power to exclude nonmembers from tribal
lands permits a tribe to condition a nonmember’s entry or
continued presence on tribal land, see Merrion, 455 U.S.
at 144-45, but this inherent power does not permit the
Tribe to impose new regulations upon Knighton’s conduct
retroactively when she is no longer present on tribal land.
However, we agree with the district court that Knighton’s
alleged conduct violated the Tribe’s regulations that were
in place at the time of her employment. The Personnel
Manual regulated employee conduct including, but not
limited to, misfeasance or malfeasance in the performance
of duty, incompetency in the performance of job duties,
theft, carelessness or negligence with the monies or
property of the Rancheria, inducement of an employee to
act in violation of Rancheria regulations, and violation of
personnel rules—all conduct that forms the basis of the
Tribe’s claims against Knighton.

22a
Appendix A
C.

Sources of Authority

In Water Wheel, we concluded that a tribe’s inherent
sovereign power to exclude nonmembers from tribal land
provides an independent basis upon which a tribe may
regulate the conduct of nonmembers on tribal land. But,
a tribe’s power to exclude is not the only source of its
regulatory authority over nonmembers on tribal land. See
Brendale, 492 U.S. at 425 (“An Indian tribe’s [] power to
exclude nonmembers of the tribe from its lands is not the
only source of Indian regulatory authority.”). “[T]ribes
have inherent sovereignty independent of that authority
arising from their power to exclude.” Id. (citing Merrion,
455 U.S. at 141); see also Babbitt Ford, Inc. v. Navajo
Indian Tribe, 710 F.2d 587, 592 (9th Cir. 1983) (“The power
to exercise tribal civil authority over [nonmembers] derives
not only from the tribe’s inherent powers necessary to selfgovernment and territorial management, but also from the
power to exclude nonmembers from tribal land.” (citing
Merrion, 455 U.S. at 141-44)).
In addition to the power to exclude, we have the
Montana Court’s acknowledgment that Indian tribes
retain their inherent sovereign power to protect tribal
self-government and to control internal relations. 450
U.S. at 564. “[I]n accordance with that right tribes ‘may
regulate nonmember behavior that implicates [these
sovereign interests].’” Attorney’s Process & Investigation
Servs., Inc. v. Sac & Fox Tribe of Miss. in Iowa, 609 F.3d
927, 936 (8th Cir. 2010) (quoting Plains Commerce Bank,
554 U.S. at 335).

23a
Appendix A
Subsequent to Montana, in Merrion, the Court
affirmed that Indian tribes have inherent sovereign power
to regulate nonmember conduct on tribal land independent
of that authority arising from their power to exclude.
Merrion, 455 U.S. at 144. The Court in Merrion concluded
that a tribe’s power to tax nonmember mining and drilling
on tribal land derived from its inherent “power to govern
and to pay for the costs of self-government,” and concluded
that such regulatory authority was also within the tribe’s
inherent power to condition the continued presence of
nonmembers on tribal land. Id. at 144-45. These varied
sources of tribal regulatory power over nonmember
conduct on the reservation were affirmed by the Court in
Plains Commerce Bank. 554 U.S. at 337 (“[T]he regulation
must stem from the tribe’s inherent sovereign authority to
set conditions on entry, preserve tribal self-government,
or control internal relations.”).
While the district court believed that our caselaw
prohibited the application of the Montana framework
to tribal jurisdictional issues involving nonmember
conduct on tribal land, it also recognized that a tribe’s
regulatory power over nonmembers on tribal land does
not solely derive from its power to set conditions on entry
or continued presence. Accordingly, it concluded that
the Tribe had regulatory jurisdiction over Knighton’s
conduct because “Knighton’s employment activities
directly affected the Tribe’s inherent powers to protect
the welfare of its members and preserve the integrity of
its government,” and because “her conduct threatened the
Tribe’s very economic survival.”

24a
Appendix A
We now clarify Water Wheel and our subsequent cases
involving tribal jurisdictional issues on tribal land do not
exclude Montana as a source of tribal regulatory authority
over nonmember conduct on tribal land. Rather, our
caselaw states that an Indian tribe has power to regulate
nonmember conduct on tribal land incident to its sovereign
power to exclude nonmembers from tribal land, regardless
of whether either of the Montana exceptions is satisfied.
See Water Wheel, 642 F.3d at 814 (“[T]he tribe’s status as
landowner is enough to support regulatory jurisdiction
without considering Montana.” (emphasis added)); Grand
Canyon Skywalk Dev., LLC v. ‘SA’ Nyu Wa Inc., 715 F.3d
1196, 1204 (9th Cir. 2013) (“[A] tribe’s inherent authority
over tribal land may provide for regulatory authority
over [nonmembers] on that land without the need to
consider Montana.” (emphasis added)); Window Rock,
861 F.3d at 902 (“[I]n civil cases involving nonmember
conduct on tribal land, we have held that tribal courts have
jurisdiction unless a treaty or federal statute provides
otherwise—regardless of whether the Montana exceptions
would be satisfied.” (emphasis added)). Certainly, as our
caselaw has discussed at length, without evidence of a
contrary intent by Congress, a tribe’s power to regulate
nonmember conduct on tribal land flows from its inherent
power to exclude and is circumscribed only to the limited
extent that the circumstances in Hicks—significant state
interests—are present. See Water Wheel, 642 F.3d at 813;
Grand Canyon, 715 F.3d at 1205; Window Rock, 861 F.3d
at 902. However, the Court has made clear that a tribe also
has sovereign authority to regulate nonmember conduct
on tribal lands independent of its authority to exclude
if that conduct intrudes on a tribe’s inherent sovereign
power to preserve self-government or control internal

25a
Appendix A
relations. The Montana exceptions are “rooted” in the
tribes’ inherent power to regulate nonmember behavior
that implicates these sovereign interests. Attorney’s
Process, 609 F.3d at 936 (citing Plains Commerce Bank,
554 U.S. at 335).
Accordingly, although we conclude that the Tribe had
authority to regulate Knighton’s conduct on tribal land
pursuant to its sovereign exclusionary powers, a separate
question remains as to whether the Tribe also had
regulatory authority over Knighton’s conduct pursuant
to Montana.
i.

First Montana Exception

Montana’s consensual relationship exception
recognizes that tribes have jurisdiction to regulate
consensual relations “through taxation, licensing, or other
means.” 450 U.S. at 565. Courts have recognized that tort
law, under which the Tribe’s claims against Knighton
arise, constitutes a form of regulation. See Attorney’s
Process, 609 F.3d at 938 (stating that if a tribe retains the
power under Montana to regulate nonmember conduct, it
does not make any difference whether it does so through
precisely tailored regulations or through tort claims).
However, Montana’s consensual relationship exception
requires that “the regulation imposed by the Indian
tribe have a nexus to the consensual relationship itself.”
Atkinson Trading Co. v. Shirley, 532 U.S. 645, 656, 121
S. Ct. 1825, 149 L. Ed. 2d 889 (2001). “A nonmember’s
consensual relationship in one area thus does not trigger
tribal civil authority in another.” Id.

26a
Appendix A
Examining the facts of this case, we conclude that the
Tribe has regulatory authority over Knighton’s conduct
in this case under Montana’s consensual relationship
exception. The conduct that the Tribe seeks to regulate
through tort law arises directly out of the consensual
employment relationship between the Tribe and Knighton.
Moreover, given the circumstances, Knighton should have
reasonably anticipated that her conduct might “trigger”
tribal authority. Water Wheel, 642 F.3d at 818 (quoting
Plains Commerce Bank, 554 U.S. at 338). Knighton is
no stranger to the Tribe’s governance and laws. She had
been an employee of the Tribe for approximately sixteen
years and, as Tribal Administrator, was responsible
for the overall supervision and management of tribal
operations and carrying out tribal projects consistent with
the Tribal Constitution. The Tribal Constitution, adopted
approximately two years before Knighton resigned as
Tribal Administrator, specifically provided that the
“jurisdiction of [the Tribe] shall extend to land now within
the confines of the [Rancheria] and to such other lands
as may thereafter be added thereto.” We conclude that
given these circumstances, Knighton should reasonably
have anticipated that her conduct on tribal land would fall
within the Tribe’s regulatory jurisdiction.
ii.

Second Montana Exception

In determining whether Knighton’s conduct threatens
or has some direct effect on the political integrity, the
economic security, or the health or welfare of the tribe—
the second Montana exception, 450 U.S. at 566—we find
instructive the Eighth Circuit’s decision in Attorney’s

27a
Appendix A
Process. In that case, API, a nonmember corporation,
was hired by a tribal government leader who refused
to step down from leadership after he lost in a special
tribal election. 609 F.3d at 932. Under their contract, API
agreed to perform services relating to “the investigation
of a takeover by dissidents at the Tribe’s facility located
on the Tribe’s reservation lands.” Id. As the newly elected
tribal council occupied the casino and tribal government
offices, approximately thirty API agents forced their way
into both buildings, which were located on tribal land. Id.
The agents were armed with batons, at least one carried
a firearm, and they seized confidential information from
both facilities related to the tribe’s gaming operations
and finances. Id. In addition to the wrongfully seized
confidential information, the agents caused approximately
$7,000 in property damage and committed various
intentional torts against tribal members. Id. The tribe
filed suit in tribal court for trespass to tribal land and
chattels, misappropriation of trade secrets, and other
claims. Id.
API argued that tort claims do not in the ordinary
course threaten the political integrity, economic security,
or the health or welfare of the tribe and thus the tribal
court had no jurisdiction over the tribe’s claims under
Montana’s second exception. Id. at 937. Relying on Plains
Commerce Bank, the court in Attorney’s Process stated
that courts “should not simply consider the abstract
elements of the tribal claim at issue, but must focus
on the specific nonmember conduct alleged, taking a
functional view of the regulatory effect of the claim on
the nonmember.” Id. at 938. The court concluded that

28a
Appendix A
API’s raid on the casino and government offices, leading
to the claims for trespass to land, trespass to chattels,
and misappropriation of tribal trade secrets, “menace[d]
the ‘political integrity, the economic security, [and] the
health [and] welfare’ of the Tribe to such a degree that
it ‘imperil[ed] the subsistence’ of the tribal community”
and that the tribe therefore retained the inherent power
under the second Montana exception to regulate that
conduct. Id. at 939 (alterations in original) (quoting Plains
Commerce Bank, 554 U.S. at 341).
While Knighton’s conduct constitutes a different
type of violation, it was of long duration and had a great
impact upon the Tribe, and so we conclude that the alleged
harm to the Tribe caused by her conduct “‘imperil[ed] the
subsistence’ of the tribal community.” Evans v. ShoshoneBannock Land Use Policy Comm’n, 736 F.3d 1298, 1306
(9th Cir. 2013) (quoting Plains Commerce Bank, 554 U.S.
at 341). Among the tribe’s many claims are allegations that
Knighton invested the Tribe’s money without appropriate
authority, concealed investment documents and audit
reports from the Tribe, and attempted to enter financial
agreements without the appropriate authorization or
waiver of tribal sovereign immunity. The Tribe also alleges
that Knighton made unreasonably risky investments that
led to investment losses in excess of $1.2 million, excess
transaction fees, and state and federal tax exposure, and
that she breached her fiduciary duty and deceived the
Tribe, causing it to pay $300,000, $150,000 above market
value, for the RISE building purchase. Finally, the Tribe
alleges that when she resigned her employment with the
Tribe, Knighton took all files, including files belonging to

29a
Appendix A
the Tribe, room furnishings, and a computer, representing
to the Tribe that the property removed belonged to RISE.
We conclude that this conduct threatened the Tribe’s
very subsistence and that the Tribe therefore retains the
inherent power under the second Montana exception to
regulate this conduct.
II. Adjudicatory Jurisdiction
Knighton also contends that the Tribe is seeking to
exercise greater adjudicative authority over her than
it was capable of at the time of her employment. She
argues that the adjudicatory authority of the Tribe is
limited to the disciplinary procedures provided for in the
Personnel Manual. At the time of her employment, the
disciplinary actions detailed in the Personnel Manual for
an employee’s breach of rules and standards of conduct
in the course of employment included a verbal warning,
written reprimand, suspension without pay, demotion, and
involuntary termination. The Personnel Manual provided
that when the Tribal Administrator was the subject of
disciplinary action, the Community Council directly
oversaw the disciplinary and grievance procedures.
We hold that the Tribe has the power to regulate
Knighton’s conduct incident to its sovereign powers to
exclude nonmembers from tribal land, and also, in the
alternative, under both Montana exceptions. “[W]here
tribes possess authority to regulate the activities of
nonmembers, ‘[c]ivil jurisdiction over [disputes arising out
of] such activities presumptively lies in the tribal courts.’”
Strate v. A-1 Contractors, 520 U.S. 438, 453, 117 S. Ct.

30a
Appendix A
1404, 137 L. Ed. 2d 661 (1997) (second and third alterations
in original) (quoting Iowa Mut. Ins. Co. v. LaPlante, 480
U.S. 9, 18, 107 S. Ct. 971, 94 L. Ed. 2d 10 (1987)). However,
a tribe’s adjudicative authority over nonmembers may not
exceed its regulatory authority. Id.
We conclude that under the facts of this case, the
Tribe’s adjudicatory authority does not exceed the
regulatory authority it had over Knighton’s conduct during
her employment under Water Wheel’s right-to-exclude
framework. As discussed above, the Personnel Manual
regulated the conduct that forms the basis of the Tribe’s
claims against Knighton and conferred jurisdiction over
her conduct as Tribal Administrator on the Community
Council. The fact that the Tribe now seeks to adjudicate
these claims in the Tribal Court does not undermine its
jurisdiction over the Tribe’s claims.
Likewise, examining the Tribe’s adjudicative authority
over Knighton’s conduct under Montana, we return to the
illuminating Eighth Circuit opinion in Attorney’s Process.
Similar to this case, in Attorney’s Process, the tribal court
system was established after the tort claims against API
arose. 609 F.3d at 933. API argued that the tribe lacked
jurisdiction over its claims because there were no written
regulations in place at the time which prohibited the
tortious conduct that API was alleged to have committed.
Id. at 938. The court stated that “[i]f the Tribe retains
the power under Montana to regulate such conduct, we
fail to see how it makes any difference whether it does
so through precisely tailored regulations or through tort
claims such as those at issue [in the case].” Id. The court

31a
Appendix A
concluded that because API’s intervention onto tribal
land threatened the “‘political integrity, the economic
security, [and] the health [and] welfare’ of the Tribe,”
the tribe had the authority to regulate and adjudicate
such conduct under Montana, as well as incident to its
sovereign right to exclude nonmembers from tribal land.
Id. at 940 (alterations in original) (quoting Montana, 450
U.S. at 566).
As the court in Attorney’s Process recognized, our
task is to outline the boundaries of the inherent sovereign
power retained by the Indian tribes. “Those boundaries
are established by federal law, a source of law external to
the tribes.” Id. at 938 (citing Nat’l Farmers Union, 471
U.S. at 852). In contrast, “positive tribal law,” the court
stated, “is internal to the tribes.” Id. “It is a manifestation
of tribal power, and as such it does not contribute to the
external limitations which concern us here. Once it is
determined that certain conduct is within the scope of a
tribe’s power as a matter of federal law, our inquiry is at
an end.” Id.
In the present case, the Tribe’s authority to regulate
Knighton’s conduct derived not only from its sovereign
power to exclude nonmembers from tribal lands, but also
from its inherent sovereign power to regulate consensual
relations with nonmembers “through taxation, licensing,
or other means,” and to protect the “political integrity,
the economic security, [and] the health [and] welfare” of
the Tribe. Montana, 450 U.S. at 565-66.

32a
Appendix A
Once the authority to regulate nonmember conduct
exists, whether from Water Wheel or from Montana,
then the observation from the court in Attorney’s Process
persuades us that it makes no difference whether the
Tribe adjudicates Knighton’s conduct through the
Personnel Manual or through tort law.
CONCLUSION
There is no general rule as to the extent of a tribe’s
adjudicative jurisdiction over non-Indians on tribal land,
but “it is clear that the general rule announced in Strate,
and confirmed in Hicks and Plains Commerce Bank, that
adjudicative jurisdiction is confined by the bounds of a
tribe’s regulatory jurisdiction” applies. Water Wheel, 642
F.3d at 814. Given the existence of regulatory authority,
the sovereign interests at stake, and the congressional
interest in promoting tribal self-government, we conclude
that the Tribal Court has jurisdiction over the Tribe’s
claims in this case.
AFFIRMED.

33a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE EASTERN
DISTRICT OF CALIFORNIA, FILED
FEBRUARY 15, 2017
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
Case No. 16-cv-02438-WHO
DUANNA KNIGHTON.,
Plaintiff,
v.
CEDARVILLE RANCHERIA OF NORTHERN
PAIUTE INDIANS, et al.,
Defendants.
February 15, 2017, Decided
February 15, 2017, Filed
ORDER GRANTING MOTION TO DISMISS
Re: Dkt. No. 10
INTRODUCTION
Plaintiff Duanna Knighton, the former Tribal
Administrator for defendant Cedarville Rancheria of
Northern Paiute Indians (“the Tribe”), seeks declaratory

34a
Appendix B
and injunctive relief against the Tribe, Cedarville
Rancheria Tribal Court (“Tribal Court”), and Tribal
Court Judge Patricia R. Lenzi (“Tribal Judge Lenzi”)
(collectively “defendants”) to avoid Tribal Court
jurisdiction over claims that she defrauded the Tribe and
breached her fiduciary duties to it. Defendants move to
dismiss Knighton’s complaint because the Tribal Court
has jurisdiction. I agree that it has both regulatory and
adjudicative authority over its former employee under
the facts alleged; accordingly, it has subject matter
jurisdiction. Defendants’ motion is GRANTED WITH
PREJUDICE.
BACKGROUND
I.

FACTUAL BACKGROUND1
A.

The Cedarville Rancheria Tribe

Cedarville Rancheria of Northern Paiute Indians
(“the Tribe”) is a federally recognized Indian tribe located
in Medoc County, California. Id. ¶ 2;1 Duran Decl. ¶ 3 (Dkt.
1. The following facts are alleged in Knighton’s complaint
and attached exhibits (Dkt. No. 1), defendants’ motion to dismiss
(Dkt. No. 10), Knighton’s opposition (Dkt. No. 14), and defendants’
reply (Dkt. No. 15). Knighton attached the following exhibits to her
complaint: (1) Cedarville Rancheria Judicial Code, see Compl. ¶ 15;
Ex. 1 (Dkt. No. 1-2 at 1); (2) Cedarville Rancheria Policies, see Compl.
¶ 18; Ex. 2 (Dkt. No. 1-2 at 19); (3) Cedarville Rancheria Constitution
and Bylaws, see Compl. ¶ 24; Ex. 3 (Dkt. No. 1-2 at 42); (4) Tribal
Court Complaint, see Compl. ¶ 27; Ex. 4 (Dkt. No. 1-3 at 1); (5) Tribal
Court Order regarding TRO and Injunction, see Compl. ¶ 31; Ex.
5 (Dkt. No. 1-3 at 19); (6) Tribal Court Order Denying Knighton’s

35a
Appendix B
No. 10-2). It has approximately 12 voting members2 and
operates a 17-acre Rancheria in Cedarville, California.
Compl. ¶ 2; Tribal Court Compl. ¶1 (Dkt. No. 1-3 at 2).
The Rancheria land is held in trust for the Tribe by the
United States government; it contains tribal housing, a
recreation center, travel center, convenience store, and
gas station. Duran Decl. ¶ 3. The Tribe’s headquarters
building is located approximately 30 miles west of the
Rancheria in Alturas, California, on land owned in fee by
the Tribe. 3 Compl. ¶ 2; Duran Decl. ¶ 4.
Motion to Dismiss, see Compl. ¶ 32; Ex. 6 (Dkt. No. 1-3 at 23); (7)
Stipulation Regarding Temporary Stay, see Compl. ¶ 33; Ex. 7 (Dkt.
No. 1-3 at 32); (8) Tribal Court Order Granting Temporary Stay,
see Compl. ¶ 34; Ex. 8 (Dkt. No. 1-3 at 39); (9) Tribal Court Order
Granting RISE’s Motion to Dismiss, see Compl. ¶ 35; Ex. 9 (Dkt. No.
1-3 at 41); (10) Tribal Court of Appeals Order Regarding Knighton’s
Motion to Dismiss, see Compl. ¶ 36; Ex. 10 (Dkt. No. 1-3 at 51); (11)
Tribal Court Order Denying Knighton’s Motion to Dismiss Under
Rule 19, see Compl. ¶ 37, Ex. 11 (Dkt. No. 1-3 at 58); (12) Stay and
Stipulation Vacating the Appeal, see Compl. ¶ 38, Ex. 12 (Dkt. No. 1-3
at 64); (13) Cedarville Rancheria’s Complaint in an unrelated action,
see Compl. ¶ 60; Ex. 13 (Dkt. No. 1-3 at 68). Citations to exhibits
attached to Knighton’s complaint are to page numbers corresponding
to the ECF docket number.

2. This figure was extracted from the Tribe’s complaint against
Knighton, filed in October 2014. Tribal Court Compl. ¶ 1 (Dkt. No.
1-3 at 2).
3. The Tribe is currently “in the process of seeking fee-to-trust
status of the land on which the Tribal headquarters sit.” Tribal Court
Order Denying Knighton’s Motion to Dismiss Under Rule 19 ¶ 7 (Dkt.
No. 1-3 at 61). The Tribal Court Order, dated June 29, 2016, indicates
that “[t]his process will conclude within the next 20 months, at most,
and may conclude within 14 months of the date of this hearing.” Id.

36a
Appendix B
In February 2011, the Tribe’s voting membership
adopted by election the Constitution and Bylaws of the
Cedarville Rancheria, which was approved in March 2011
by the Regional Director of the United States Department
of the Interior, Bureau of Indian Affairs. Compl. ¶ 24; see
Cedarville Rancheria Constitution and Bylaws (Dkt. No.
1-2 at 43). Article II of the Tribe’s constitution provides
that the “jurisdiction of [the Tribe] shall extend to the land
now within the confines of the Cedarville Rancheria and
to such other lands as may hereafter be added thereto.”
Cedarville Rancheria Constitution and Bylaws (Dkt. No.
1-2 at 45).
The Tribe’s governing body is the Community Council
composed of all qualified voters of the Rancheria who are
18 years of age or older. Id. (Dkt. No. 1-2 at 46). Every
three years the Community Council elects three of its
members to serve on the Executive Committee—the Tribal
Chairperson, Vice Chairperson, and Secretary. Id. (Dkt.
No. 1-2 at 46-47). The Executive Committee is empowered
to enforce the Community Council’s ordinances,
resolutions, and other enactments, and represents the
Tribe in all negotiations with tribal, federal, state, and
local governments. Id. The Tribal Chairperson functions
as the “chief executive officer” of the Tribe, oversees all
Rancheria matters including signing checks on behalf
of the Tribe for tribal expenses, and is the “authorized
point-of-contact, along with the Tribal Secretary or Tribal
Administrator, to sign Tribal documentation, including
grant applications, MOUs [memoranda of understanding],
supply orders, trip requests, etc.” Id. (Dkt. No. 1-2 at 50).

37a
Appendix B
B. Plaintiff Duanna Knighton’s Employment with
the Tribe
Duanna Knighton is a non-Indian California resident
who was employed by the Tribe from July 1996 until she
resigned in March 2013. Compl. ¶¶ 1, 9. She is not a member
of the Tribe and has never resided on nor owned tribal
land. Id. ¶¶ 10-11. The Tribe hired her in 1996 as a parttime office assistant. Tribal Compl. ¶ 10 (Dkt. No. 1-3 at
4). In 1999, she became a salaried tribal employee eligible
for employment benefits, and she was later promoted to
Tribal Administrator—the position she held at the time
of her resignation. Compl. ¶ 9; Tribal Compl. ¶¶ 13-15
(Dkt. No. 1-3 at 4). As Tribal Administrator, Knighton
was “responsible for over-all supervision and management
of the Cedarville Rancheria,” and oversaw the Tribe’s
“payroll, taxes, and expenses, financial statements/
reports for audit, expenditures, and ledgers under direct
supervision of the Chairperson.” Compl. ¶ 18; Cedarville
Rancheria Constitution and Bylaws (Dkt. No. 1-2 at 26).
From 2009 until at least October 2016, Knighton was
also employed by Resources for Indian Student Education
(“RISE”), a California nonprofit that provides education
services and programs to Indian children.4 Compl. ¶ 14;
Tribal Court Order Granting RISE Mot. to Dismiss (Dkt.
No. 1-3 at 43). RISE is not a tribally-created or licensed
business entity; it receives the majority of its funding from
4. Presumably, Knighton is no longer employed by RISE, as
the parties’ January 17, 2017 joint case management statement
refers to RISE as Knighton’s “former employer.” Case Management
Statement (Dkt. No. 12 at 3).

38a
Appendix B
state and federal grants and private donations. Tribal
Court Compl. ¶ 3 (Dkt. No. 1-3 at 3), Tribal Court Order
Granting RISE Mot. to Dismiss (Dkt. No. 1-3 at 43).
During Knighton’s employment, the Tribe regulated
its employees pursuant to the Cedarville Rancheria
Personnel Policies and Procedures Manual (“Personnel
Manual”). It set forth disciplinary and grievance
procedures for tribal employees prior to the creation of
the Tribal Court, which will be discussed later. Compl.
¶¶ 18-23. Under the Personnel Manual—which Knighton
helped develop when she was Tribal Administrator—all
tribal employees subjected to disciplinary action were
entitled to file a grievance with the Tribal Administrator
and could appeal certain disciplinary actions after
exhausting available administrative remedies. Id. ¶¶ 2023; Personnel Manual (Dkt. Nos. 1-2 at 26, 39). Where
the Tribal Administrator was the subject of disciplinary
action, the Tribal Council, composed of the Tribe’s adult
voting membership, directly oversaw the disciplinary and
grievance procedures. Personnel Manual (Dkt. No. 1-2
at 40). Appeal hearings were subject to the control of the
Tribal Council, and were “presided over as other council
meetings and the general format [would] be followed
unless the council decide[d] [t]o vary the procedure.”
Id. (Dkt. No. 1-2 at 40-41). The Tribal Council’s decision
following an appeal hearing was final. Id.

39a
Appendix B
C.

The Tribe’s Purchase of the RISE Property

In mid-2009, 5 Knighton recommended that the Tribe
purchase from RISE an administrative building located in
Alturas, California, for a “below market rate” of $350,000.
Id. ¶¶ 29-30; Tribal Court Compl. ¶ 18 (Dkt. No. 1-3 at 5-6).
Acting in her capacity as Tribal Administrator, Knighton
negotiated the purchase on behalf of the Tribe. Tribal
Court Compl. ¶ 49 (Dkt. No. 1-3 at 12). She represented
that the loan could be paid off within 5 years, that RISE
would remain a tenant in the building and that the Tribe
could use that rental income to pay off the mortgage. Id.
¶¶ 49-50 (Dkt. No. 1-3 at 12). In June 2009, the Tribe—
relying on Knighton’s representations—submitted a
counter-offer of $300,000, which RISE accepted.6 Id. The
property currently serves as the tribal headquarters,
and the title to the building and land is owned in fee by
the Tribe.7 Tribal Court Order Granting RISE Mot. to
Dismiss (Dkt. No. 1-3 at 44).
Within 12 months of the sale, RISE moved its business
operations out of the building, contrary to Knighton’s
representation that it would remain a rent-paying tenant.
5. During this time, former Tribal Chairperson Cherie Lash
Rhoades supervised Knighton’s activities as Tribal Administrator.
Compl. ¶ 26. See infra section I.F.
6. The Tribal Court noted that there is no document in existence
that sets forth the terms of the sale between RISE and the Tribe for
the building. Tribal Court Order Granting RISE’s Mot. to Dismiss
(Dkt. No. 1-3 at 44).
7. See supra note 3.

40a
Appendix B
Tribal Court Compl. ¶¶ 18, 49 (Dkt. No. 1-3 at 6, 12). At
the time of the purchase, Knighton failed to disclose to
the Tribe that: (1) she was an officer or agent of RISE; (2)
RISE was close to insolvency; (3) she and RISE would split
the proceeds of the sale after paying off the building loan;
and (4) the building’s actual market value was $150,000,
not $300,000. Tribal Court Compl. ¶¶ 49-55 (Dkt. No. 1-3
at 12). The Tribe did not learn about her conflict of interest
and other omissions regarding the purchase of the RISE
building until after she resigned in March 2013. Tribal
Court Compl. ¶ 19 (Dkt. No. 1-3 at 6).
D.

Knighton’s Resignation

In March 2013, Knighton resigned from her position
as Tribal Administrator. Compl. ¶ 9; Tribal Court Compl.
¶ 19 (Dkt. No. 1-3 at 6). Immediately before she resigned,
Knighton cashed-out $29,925 8 in vacation and sick pay 9
in violation of the Tribe’s policies and procedures. Tribal
Court Compl. ¶ 20 (Dkt. No. 1-3 at 6). The Tribal Vice
Chairperson signed off on Knighton’s request to cash
out based on her representation that Tribal Chairperson
Cherie Lash Rhoades had approved it. Id. The Tribe
issued a check in the amount of $29,925, payable to RISE
on Knighton’s behalf. Id. In late 2013, upon learning that
8. The Tribe’s complaint lists the amount as $29,995, see Tribal
Court Compl. ¶ 22, but the attached exhibit states $29,925, see Tribal
Court Compl., Ex. A.
9. Exhibit A attached to the Tribe’s complaint says this was for
sick pay, not vacation pay, but the complaint alleges vacation pay.
Tribal Court Compl. ¶ 20.

41a
Appendix B
Knighton had inflated her vacation and sick pay, the Tribe
sent a letter to her and RISE demanding the return of
the $29,925 improperly paid to her—both RISE and
Knighton declined through their counsel to return the
funds. Id. ¶ 22.
E. Creation of Tribal Judicial Code and Tribal
Court
In December 2013, nine months after Knighton’s
resignation, the Tribe enacted the Cedarville Rancheria
Judicial Code and established the Cedarville Rancheria
Tribal Court (“Tribal Court”). Compl. ¶¶ 15-16. The
Tribal Court, including a trial and appellate division, was
created “for the purpose of protecting and promoting
tribal sovereignty, strengthening tribal self-government,
[and] providing for the judicial needs of the Cedarville
Rancheria.” Cedarville Rancheria Judicial Code (Dkt.
No. 1-2 at 2). Tribal Court proceedings are governed
by the Federal Rules of Civil Procedure and Rules of
Evidence, and the court can apply tribal, federal, and state
laws, issue orders and judgments, and award monetary
damages and injunctive relief. Compl. ¶ 25; Cedarville
Rancheria Judicial Code (Dkt. No. 1-2 at 15).
Pursuant to Section 201 of the Tribe’s Judicial Code,
the Tribal Court has subject matter jurisdiction over “[a]ll
persons outside the exterior boundaries of the Cedarville
Rancheria Reservation ... within the jurisdiction of the
Rancheria pursuant to federal or tribal law, including all
persons whose activity on or off reservation threatens
the Rancheria, government or its membership,” and to

42a
Appendix B
“[a]ll other persons whose actions involve or affect the
Rancheria, or its members, through commercial dealings,
contracts, leases or other arrangements.” Cedarville
Rancheria Judicial Code (Dkt. No. 1-2 at 3-4). The Code
further provides that the Tribal Court’s judicial power
extends to “[a]ll civil causes of action arising at common
law including, without limitation, all contract claims
(whether the contract at issue is written or oral or existing
at law), all tort claims (regardless of the nature), all
property claims (regardless of the nature), all insurance
claims, and all claims based on commercial dealing with
the Band, its agencies, sub-entities, and corporations
chartered pursuant to its laws, and all nuisance claims.”
Cedarville Rancheria Judicial Code (Dkt. No. 1-2 at 4).
F.

Cedarville Shooting

On February 20, 2014, during the first hearing in
the first case before the Tribal Court, former Tribal
Chairperson Cherie Lash Rhoades (Knighton’s former
boss) opened fire and killed four Tribe members. Compl.
¶ 26; Tribal Court Compl. ¶ 23 (Dkt. No. 1-3 at 7). Rhoades
and the victims were all linked to the underlying dispute
between Knighton and the Tribe. Compl. ¶ 26. Among
those murdered were the Tribal Administrator and
Rhoades’ brother, who was Tribal Chairman and an
outspoken critic of Knighton’s handling of the Tribe’s
finances. Tribal Court Compl. ¶ 23 (Dkt. No. 1-3 at 7).
In the aftermath of this tragic shooting, the Tribe
conducted a forensic accounting of its finances. Tribal
Court Compl. ¶ 24 (Dkt. No. 1-3 at 7). The investigation

43a
Appendix B
revealed that during Knighton’s tribal employment, she
made various unauthorized high-risk investment decisions
on behalf of the Tribe, which resulted in the loss of $1.2
million in tribal investments between 2007 and 2008.
Tribal Court Compl. ¶¶ 16-17 (Dkt. No. 1-3 at 5). The Tribe
was unaware of its high risk investment portfolio and $1.2
million in investment losses because Knighton concealed
the annual audit reports and investment documents from
the Tribe during her employment. Tribal Court Compl.
¶¶ 17, 24, 39-41 (Dkt. No. 1-3 at 5, 7, 9-10). The Tribe also
discovered that Knighton opened a tribally funded trust
without authorization, fraudulently inflated her salary and
benefits, and manipulated the Tribe’s policies to provide
herself fringe benefits, including a pension and excess sick
and vacation days. Tribal Court Compl. ¶ 26-31 (Dkt. No.
1-3 at 7-8). After discovering Knighton’s mismanagement
of tribal finances and unauthorized investments, the Tribe
filed suit against her in Tribal Court.
II. PROCEDURAL BACKGROUND
A.

The Underlying Tribal Court Action

On September 25, 2014,10 the Tribe lodged a complaint
in Tribal Court against Knighton, RISE, and Oppenheimer
Funds, Inc.11 Compl. ¶¶ 27, 29-30; see Tribal Court Compl.
10. The complaint is dated September 25, 2014, but stamped
as filed on October 2, 2014.
11. Oppenheimer Funds, Inc. is a New York based financial
fund manager that held funds at issue in this matter, on deposit
from the Tribe for the benefit of Knighton. Tribal Court Compl. ¶ 4
(Dkt. No. 1-3 at 3).

44a
Appendix B
(Dkt. No. 1-3 at 1-18).12 The Tribe’s complaint asserts eight
claims against Knighton: (1) fraud and deceit; (2) recovery
of unauthorized and excessive pension payments; (3)
recovery of unauthorized investment losses; (4) breach of
fiduciary duty; (5) aiding and abetting breach of fiduciary
duty; (6) unjust enrichment; (7) common count-account
stated; and (8) common count-money had and received. Id.
Claims five through eight are brought against Knighton
and RISE. Compl. ¶ 30.
On October 1, 2014, the Tribal Court issued a
temporary restraining order against Knighton, RISE,
and Oppenheimer, freezing all funds on deposit with
Oppenheimer held in Knighton’s name. Id. ¶ 31; Compl.
Ex. 5, Tribal Court Order Re TRO (Dkt. No. 1-3 at 20).
On October 28, 2014, Knighton filed a Rule 12(b)(6)
motion to dismiss the complaint, and the Tribal Court
heard argument on January 8, 2015. Compl. ¶ 32. The
Tribal Court, Chief Judge Lenzi presiding, ruled that it
had authority to adjudicate the case and denied Knighton’s
motion to dismiss on March 11, 2015. Id. ¶ 32; Compl. Ex.
6, Tribal Court Order Denying Knighton’s Mot. to Dismiss
(Dkt. No. 1-3 at 24). On February 24, 2015, RISE filed
a separate Rule 12(b)(2) motion challenging the Tribal
Court’s jurisdiction. Compl. Ex. 9, Order Granting Mot.
to Dismiss as to RISE (Dkt. No. 1-3 at 42). On April 21,
12. The underlying tribal court action is titled Cedarville
Rancheria of Northern Paiute Indians v. Duanna Knighton, et al.,
Case No. CED-CI-2014-00002. Compl. Ex. 4, Tribal Court Compl.
(Dkt. No. 1-3 at 1).

45a
Appendix B
2015, the parties13 stipulated to stay the action against
Knighton pending a ruling on RISE’s motion to dismiss.
Compl. ¶¶ 33-34. The Tribal Court granted the stay on
April 23, 2015, and noted that its jurisdictional ruling was
not ripe for federal review but was ripe for review in the
Cedarville Rancheria Court of Appeals (“Tribal Court of
Appeals”). Id. ¶ 34; Order Granting Temporary Stay ¶¶ 1-2
(Dkt. No. 1-3 at 40). On June 30, 2015, the Tribal Court
granted RISE’s motion to dismiss for lack of personal
jurisdiction. Compl. ¶ 35; Order Granting Mot. to Dismiss
as to RISE (Dkt. No. 1-3 at 42).
Knighton filed a notice of appeal on July 20, 2015,
asserting that the Tribal Court lacks jurisdiction over
her, and that the tribal complaint must be dismissed
because RISE is an indispensable party whose joinder
is not feasible. Compl. ¶ 36. On March 7, 2016, the Tribal
Court of Appeals affirmed the Tribal Court’s denial of
Knighton’s motion to dismiss but remanded the issue of
whether RISE was an indispensable party—raised for the
first time on appeal—to the Tribal Court to develop the
factual record and make the necessary findings. Id.; Tribal
Court of Appeals Order Regarding Knighton’s Motion
to Dismiss (Dkt. No. 1-3 at 52). Knighton subsequently
filed a motion to dismiss under Rule 12(b)(7) for failure
to join indispensable party RISE under Rule 19. Compl.
¶ 37. The Tribal Court heard argument on June 13, 2016,
and denied the motion in its entirety on June 29, 2016. Id.;
Tribal Court Order Denying Knighton’s Motion to Dismiss
13. The Tribal Court dismissed Oppenheimer from the action
sometime before April 21, 2015. Stipulation Regarding Temporary
Stay (Dkt. No. 1-3 at 33).

46a
Appendix B
Under Rule 19 (Dkt. No. 1-3 at 59). Knighton appealed the
decision to the Tribal Court of Appeals. Compl. ¶ 38. On
September 26, 2016, pursuant to a stipulation between the
parties, the Tribal Court vacated the appeal and stayed
the case to allow Knighton to challenge the Tribal Court’s
jurisdiction over her in federal court. Compl. ¶ 38.
B. The Present Action
On October 12, 2016, Knighton filed this action
against the Tribe, Tribal Court, and Tribal Judge Lenzi.14
Knighton seeks (1) a declaratory judgment that the Tribal
Court lacks jurisdiction over her, (2) a declaration that
RISE is an indispensable party to the tribal action and
therefore she must be dismissed from the suit, and (3)
a permanent injunction against further proceedings in
Tribal Court. Compl. ¶¶ 67-69.
On December 16, 2016, defendants moved to dismiss
Knighton’s complaint pursuant to Rule 12(b)(1) and
(6), on the following grounds: (1) the complaint fails to
establish federal subject matter jurisdiction; (2) the Tribal
Court has jurisdiction over Knighton under Montana v.
United States, 450 U.S. 544, 101 S. Ct. 1245, 67 L. Ed.
2d 493 (1981); (3) sovereign immunity shields defendants
from suit; (4) Knighton’s complaint fails to state a claim
upon which relief can be granted; (5) defendants are
not necessary parties to federal review of Tribal Court
jurisdiction; and (6) this case will never be ripe for federal
review. Mot. (Dkt. No. 10).
14. Defendant Patricia R. Lenzi is chief judge of the Tribal
Court, and she is included in Knighton’s suit in her official capacity
only. Compl. ¶¶ 4, 6.

47a
Appendix B
DISCUSSION
“[A] federal court may determine under § 1331
whether a tribal court has exceeded the lawful limits of its
jurisdiction” over a nonmember. Nat’l Farmers Union Ins.
Companies v. Crow Tribe of Indians, 471 U.S. 845, 852-53,
105 S. Ct. 2447, 85 L. Ed. 2d 818 (1985). “Non-Indians may
bring a federal common law cause of action under 28 U.S.C.
§ 1331 to challenge tribal court jurisdiction.” Boozer v.
Wilder, 381 F.3d 931, 934 (9th Cir. 2004). However, as
a matter of comity, a plaintiff must first exhaust tribal
court remedies before seeking relief in federal court.15
Atwood v. Fort Peck Tribal Court Assiniboine, 513 F.3d
943, 948 (9th Cir. 2008). “At a minimum, exhaustion of
tribal remedies means that tribal appellate courts must
have the opportunity to review the determinations of the
lower tribal courts.” Iowa Mut. Ins. Co. v. LaPlante, 480
U.S. 9, 17, 107 S. Ct. 971, 94 L. Ed. 2d 10 (1987). Because
Knighton is non-Indian and it is undisputed that she has
exhausted her tribal remedies with respect to the question
15. The Supreme Court recognizes four exceptions to the
exhaustion rule: “(1) when an assertion of tribal court jurisdiction is
motivated by a desire to harass or is conducted in bad faith; (2) when
the tribal court action is patently violative of express jurisdictional
prohibitions; (3) when exhaustion would be futile because of the lack of
an adequate opportunity to challenge the tribal court’s jurisdiction;
and (4) when it is plain that tribal court jurisdiction is lacking, so
that the exhaustion requirement would serve no purpose other than
delay.” Elliott v. White Mountain Apache Tribal Court, 566 F.3d
842, 847 (9th Cir. 2009) (internal quotation marks, citations, and
modifications omitted). Because the parties agree that Knighton
has exhausted tribal remedies with respect to her jurisdictional
challenge, I do not consider whether these exceptions apply.

48a
Appendix B
of tribal jurisdiction over her, subject matter jurisdiction
exists pursuant to § 1331.16
I.

TRIBAL JURISDICTION

“Tribes maintain considerable authority over the
conduct of both tribal members and nonmembers on
Indian land, or land held in trust for a tribe by the United
States.” McDonald v. Means, 309 F.3d 530, 536 (9th Cir.
2002). “To exercise its inherent civil authority over a
[nonmember] defendant, a tribal court must have both
subject matter jurisdiction—consisting of regulatory
and adjudicative jurisdiction—and personal jurisdiction.”
Water Wheel Camp Recreational Area, Inc. v. LaRance,
642 F.3d 802, 809 (9th Cir. 2011). A tribe’s regulatory
authority concerns its power to regulate nonmember
conduct while adjudicative authority relates to the tribal
court’s jurisdictional power to adjudicate certain disputes.
See Strate v. A-1 Contractors, 520 U.S. 438, 442, 117 S.
Ct. 1404, 137 L. Ed. 2d 661 (1997). The Supreme Court
has made clear, however, that a tribe’s adjudicative
authority over nonmembers is confined by the bounds of
its regulatory authority. Id.
A.

Subject Matter Jurisdiction

Montana v. United States is “the pathmarking case
concerning tribal civil authority over nonmembers.”
16. In reviewing the Tribal Court’s ruling on jurisdiction “the
district court’s review is akin to appellate review of the tribal court
record.” Water Wheel Camp Recreational Area, Inc. v. LaRance,
642 F.3d 802, 817 n.9 (9th Cir. 2011) (citation omitted).

49a
Appendix B
Strate, 520 U.S. at 445. The Montana Court announced
“the general proposition that the inherent sovereign
powers of an Indian tribe do not extend to the activities
of nonmembers of the tribe[,]” while simultaneously
recognizing that “Indian tribes retain inherent sovereign
power to exercise some forms of civil jurisdiction over
non-Indians on their reservations, even on non-Indian fee
lands.” Montana v. United States, 450 U.S. 544, 565, 101
S. Ct. 1245, 67 L. Ed. 2d 493 (1981). The Court identified
two circumstances, known as the Montana exceptions,
in which the exercise of jurisdiction over a non-Indian
might be appropriate. Id. First, “[a] tribe may regulate,
through taxation, licensing, or other means, the activities
of nonmembers who enter consensual relationships with
the tribe or its members, through commercial dealing,
contracts, leases, or other arrangements.” Id. And second,
“[a] tribe may also retain inherent power to exercise civil
authority over the conduct of non-Indians on fee lands
within its reservation when that conduct threatens or has
some direct effect on the political integrity, the economic
security, or the health or welfare of the tribe.” Id. at 566.
In the Ninth Circuit, Montana’s exceptions “do[] not
apply to jurisdictional questions” over nonmembers for
claims arising on tribal land within a reservation, except
“where a state has a competing interest in executing a
warrant for an off-reservation crime.” Water Wheel, 642
F.3d at 813 (citing Nevada v. Hicks, 533 U.S. 353, 121 S.
Ct. 2304, 150 L. Ed. 2d 398 (2001)).17 In Water Wheel, the
17. In Nevada v. Hicks, the Court held that a state’s considerable
interest in executing criminal warrants for off-reservation crimes
outweighed the tribe’s authority to regulate the on-reservation

50a
Appendix B

activities of state officers, and thus Montana applied. 533 U.S.
353, 121 S. Ct. 2304, 150 L. Ed. 2d 398 (2001). The Water Wheel
court acknowledged Hicks, but determined it “is best understood
as the narrow decision it explicitly claims to be[,]” concluding, for
jurisdictional questions arising on Indian land, Montana “appl[ies]
only when the specific concerns at issue in [Hicks] exist.” Water
Wheel, 642 F.3d at 813. The Water Wheel court arrived at this
conclusion, even though Hicks found that Montana’s reasoning
“clearly impl[ies] that the general rule of Montana applies to both
Indian and non-Indian land.” Hicks, 533 U.S. at 360. In this vein,
other circuits have recognized Water Wheel’s seeming divergence
from Supreme Court precedent. See, e.g., Stifel, Nicolaus & Co. v.
Lac du Flambeau Band of Lake Superior Chippewa Indians, 807
F.3d 184, 214 (7th Cir. 2015)(“We do not believe that [Water Wheel’s]
conclusions can be reconciled with the language that the Court
employed in Hicks and Plains Commerce Bank.”). Another district
court in this circuit recognized this deviation, and invoked the
Supremacy Clause to apply Montana on Indian land, notwithstanding
Water Wheel’s instruction to the contrary. Rolling Frito—Lay Sales
LP v. Stover, 2012 U.S. Dist. LEXIS 9555, 2012 WL 252938, at *3
(D. Ariz. 2012) (“To the extent that the per curiam opinion in Water
Wheel departs from Supreme Court jurisprudence in the area of
Federal Indian Law, we are constrained by the Supremacy Clause,
Art. VI, and Article III (‘one supreme Court’) to follow the Supreme
Court. See Thurston Motor Lines, Inc. v. Jordan K. Rand, Ltd.,
460 U.S. 533, 535, 103 S.Ct. 1343, 75 L.Ed.2d 260 (1983). We thus
apply Montana to this case.”) Another court avoided the analysis
altogether. See Salt River Project Agr. Imp. & Power Dist. v. Lee,
2013 U.S. Dist. LEXIS 10952, 2013 WL 321884, at *12 (D. Ariz.
2013)(deciding that issue of whether Montana applies is irrelevant
because the result would be the same whether foregoing application
of Montana or applying it and finding an exception applies—the tribe
would have the sovereign authority to regulate employment). While
my conclusion is the same as the court in Salt River, I address this
issue because it was important to the parties’ arguments and the
Tribal Court’s determination.

51a
Appendix B
Ninth Circuit explained that applying Montana to cases
arising on reservation trust land “would impermissibly
broaden Montana’s scope beyond what any precedent
requires and restrain tribal sovereign authority despite
Congress’s clearly stated federal interest in promoting
tribal self-government.” Id. The threshold question
then, is whether it is even necessary to apply Montana’s
exceptions to this case.
1.

Applicability of Montana

Both parties focused exclusively on Montana, while
neither party addressed Water Wheel’s explicit direction
not to apply Montana to jurisdictional questions over
nonmembers for claims arising on Indian land. Neither
party argues that Knighton’s activities occurred on nonIndian fee land within the reservation, which would justify
Montana’s application. Rather, the parties acknowledge
that the conduct at issue occurred on trust land within
the reservation and at the tribal headquarters building,18
18. The headquarters is located outside of the reservation,
where the Tribe lacks the authority to regulate a non-Indian. Water
Wheel, 642 F.3d at 815. While the underlying complaint does not
allege precisely where the conduct at issue occurred, Knighton must
concede that all pre-2009 conduct occurred on the reservation. This
pre-2009 conduct underlies many of the claims in the Tribal Court
Complaint, including unjustified salary increases, unwarranted
fringe benefits, unauthorized investment losses, and various
misrepresentations and omissions. See Tribal Court Compl. (Dkt.
No. 1-3). Even post-2009 conduct that may have taken place off of the
reservation is undoubtedly related to tribal land. See Smith v. Salish
Kootenai Coll., 434 F.3d 1127, 1132 (9th Cir. 2006)(“[W]hether tribal
courts may exercise jurisdiction over a nonmember defendant may

52a
Appendix B
which is currently undergoing a process of fee-to-trust
conversion. Tribal Court Order Denying Knighton’s
Motion to Dismiss Under Rule 19 ¶ 7 (Dkt. No. 1-3 at 61).
Accordingly, under Ninth Circuit precedent, Montana
does not apply at all. Water Wheel, 642 F.3d at 812
(collecting cases confirming that Montana does not apply
to a Tribe’s jurisdiction over non-Indians on Indian land).
The Tribal Court and Tribal Court of Appeals, however,
proceeded to apply Montana and determined that subject
matter jurisdiction exists under both Montana exceptions,
as Knighton had a longstanding consensual employment
relationship with the Tribe and her activities in question
directly harmed the Tribe’s economic security. Tribal
Court of Appeals Order Re Knighton’s Mot. to Dismiss
(Dkt. No. 1-3 at 55). In reaching this conclusion, the
Tribal Court of Appeals relied on the lower court’s factual
findings that “[s]ome of [ ] Knighton’s duties and actions
at issue in this case were carried out on the [Tribe’s] trust
lands,” and “some were carried out at the fee-owned tribal
headquarters building of the tribe in the town of Alturas,
CA, and not on trust lands of the tribe.” Id. The Tribal
Court also noted that “some of [Knighton’s] duties carried
out at Tribal Headquarters in Alturas involved actions
and effects on the Tribal trust lands in Cedarville.” Id.
In regards to RISE, the Tribal Court described the
ownership status of the lands at issue and presented
a detailed analysis of why the Tribe does not have
jurisdiction under Montana:
turn on how the claims are related to tribal lands.”) Accordingly, I
find the location of the Tribal headquarters building immaterial to
an analysis of subject matter jurisdiction.

53a
Appendix B
It is undisputed that the Cedarville Rancheria
Tribal Building is not on land held in trust
for the benefit of the Tribe. Therefore it is
not “Indian country” over which the Tribe
can exercise civil jurisdiction under [§] 28
USC 1331. Since Congress has not ratified
the Cedarville Rancheria’s Constitution, the
Tribal Administrative Building and the land on
which it sits is not only not in Indian country,
the building is also not “fee lands within its
reservation” under Bugenig or Montana. The
initial assumption under Montana is that a tribe
may exercise jurisdiction over a non-Indian on
fee lands within the tribe’s reservation — the
lands in question must be located within a
reservation’s boundaries. Therefore, the federal
standard set forth in Montana for exercising
jurisdiction over a non-Indian has not been
met because under federal legal analysis,
the [RISE] building and the land it sits on do
not meet any federal definition of reservation
lands. The two prongs of the Montana test
cannot even be reached for application until
the [Tribal] Court has found that the land in
question where the alleged contract [for sale
of the RISE building] was “fee land within the
reservation.” There is no evidence submitted
with the complaint pleading, nor is it alleged
in the complaint, that the contract was entered
into by the parties [i.e., the Tribe, Knighton and
RISE] within the reservation, or on fee lands
within the reservation. Under federal law, the

54a
Appendix B
Cedarville Rancheria Tribal Administration
building is fee land outside the reservation at
present, and is now owned by the Tribe.
Tribal Court Order Granting RISE’s Mot. to Dismiss
(Dkt. No. 1-3 at 48). The Tribal Court went on to note
that, with respect to RISE, the Tribe’s complaint “fails to
allege the condition precedent of the location of [RISE’s
tortious] activity within the boundaries of the reservation,
and the timing of the same activity being concurrent with
R.I.S.E.’s alleged tortious conduct.” Id. (Dkt. No. 1-3 at
49). It subsequently confirmed the fee status of the tribal
headquarters land in June 2016, noting that the Tribe “is
in the process of seeking fee-to-trust status of the land on
which the Tribal headquarters sit.” Tribal Court Order
Denying Knighton’s Mot. to Dismiss Under Rule 19 (Dkt.
No. 1-3 at 61).
This record demonstrates that Knighton’s activities
in question did not occur on non-Indian fee lands within
the Tribe’s reservation, and thus under Water Wheel,
the Montana exceptions do not apply.19 See Water Wheel,
642 F.3d at 810. Rather, I must return to the basic
jurisdictional analysis and assess whether the Tribe has
19. Although the Ninth Circuit has made clear that Montana
does not govern the circumstances in this case, see Water Wheel,
642 F.3d 802, if Montana did apply, I agree with the Tribal Court
that the Tribe would have subject matter jurisdiction under both
exceptions. See, e.g., Salt River Project Agr. Imp. & Power Dist. v.
Lee, 2013 U.S. Dist. LEXIS 10952, 2013 WL 321884, at *12-15 (D.
Ariz. Jan. 28, 2013)(finding Tribe had jurisdiction over nonmember
defendant on Tribal land).

55a
Appendix B
authority to regulate Knighton’s activities during her
tribal employment—all of which occurred on land owned
by the Tribe, whether on the reservation or at the feeowned Tribal Headquarters building.
2.

Tribal Regulatory Authority

A tribe’s regulatory authority over nonmembers must
derive “from the tribe’s inherent sovereign authority to
set conditions on entry, preserve self-government, or
control internal relations.” Plains Commerce Bank v.
Long Family Land & Cattle Co., 554 U.S. 316, 128 S. Ct.
2709, 171 L. Ed. 2d 457 (2008). A “tribe is able fully to
vindicate its sovereign interests in protecting its members
and preserving tribal self-government by regulating
nonmember activity on the land, within the limits set
forth in [Supreme Court] cases.” Id. at 336 (emphasis
omitted); see Merrion v. Jicarilla Apache Tribe, 455 U.S.
130, 144, 102 S. Ct. 894, 71 L. Ed. 2d 21 (1982) (finding
that the power to exclude nonmembers from reservation
trust lands “necessarily includes the lesser power to
place conditions on entry, on continued presence, or on
reservation conduct.”). To the extent a nonmember’s
activities “may intrude on the internal relations of the
tribe or threaten tribal self-rule,” such activities may be
regulated. Plains Commerce, 554 U.S. at 335.
Knighton explicitly acknowledges in her complaint
that the Tribe has regulatory authority over its employees
and their conduct: “At the time of Knighton’s employment,
the Tribe regulated its employees” and “[Knighton]
is subject to the regulatory procedures that existed

56a
Appendix B
at the time of her employment.” Compl. ¶¶ 18-19, 51.
These admissions alone establish the Tribe’s regulatory
authority over Knighton’s employment.
Furthermore, as Tribal Administrator, Knighton
directly immersed herself in, and had considerable
oversight of, nearly all aspects of the Tribe’s day-to-day
government. She was “responsible for over-all supervision
and management of the Cedarville Rancheria, including
contract negotiations, wages, and compliance; and
supervision of employees according to the salaried job
description.” Id. ¶ 18; Cedarville Rancheria Policies (Dkt.
No. 1-2 at 26). Her other job duties included “[p]lanning,
development, management, and supervision of all projects
contracted by Cedarville Rancheria;” meeting with
government agencies and other tribal offices on behalf
of the Tribe; “[r]eporting to the Tribal Council (Board)
and all funding agencies on a timely and regular basis”;
and managing “payroll, taxes, and expenses, financial
statements/reports for audit, expenditures, and ledgers
under direct supervision of the Chairperson.” Id. She
also had significant discretion in hiring, disciplining,
and terminating tribal employees, both members and
nonmembers. Id. Knighton’s employment activities
directly affected the Tribe’s inherent powers to protect
the welfare of its members and preserve the integrity of
its government.
The Tribe’s sovereign interest in ensuring its economic
survival further supports its regulatory jurisdiction here.
During her tenure as Tribal Administrator, Knighton
was extensively involved in the Tribe’s finances and was

57a
Appendix B
responsible for the Tribe’s “payroll, taxes, and expenses,
financial statements/reports for audit, expenditures, and
ledgers under direct supervision of the Chairperson.”
Id. The Tribe alleges that Knighton’s actions as Tribal
Administrator had a devastating effect on the Tribe’s
economic wellbeing. Considering the small size of the
Tribe’s membership, her conduct threatened the Tribe’s
very economic survival.
The Tribe’s regulatory jurisdiction over Knighton’s
on-reservation activities as Tribal Administrator is
unassailable. Not only does Knighton concede that the
Tribe has authority to regulate her employment, but her
alleged activities on the Rancheria directly interfered with
the Tribe’s sovereign powers to control internal relations
and protect the welfare of its members.
3.

Tribal Adjudicative Authority

“Where tribes possess authority to regulate the
activities of nonmembers, civil jurisdiction over disputes
arising out of such activities presumptively lies in the
tribal courts.” Strate, 520 U.S. at 453 (citation and brackets
omitted). However, a tribe’s adjudicative authority over
nonmembers may not exceed its regulatory authority.
Id. at 438. In Water Wheel, after concluding that the
tribe had regulatory jurisdiction over nonmembers for
trespass on reservation trust land, the Ninth Circuit
determined that adjudicative authority also existed.
642 F.3d at 816. Factors that supported a finding
of adjudicative jurisdiction included “the important
sovereign interests at stake [i.e., inherent power to

58a
Appendix B
exclude nonmembers and manage reservations lands], the
existence of regulatory jurisdiction, and long-standing
Indian law principles recognizing tribal sovereignty.” Id.
The circumstances here present an even more compelling
basis for adjudicative jurisdiction than those in Water
Wheel—Knighton was a longtime employee of the Tribe
who was entrusted with the responsibility of overseeing
all aspects of tribal operations.
Knighton’s due process argument, that “because the
Tribal Court did not exist at the time of her employment,
[the] Tribe is exceeding its authority to regulate her
employment through ex post facto application of its tribal
judicial system,” is unconvincing. Opp’n at 8 (Dkt. No. 14).
The Tribe is not attempting to “create new regulations
and impose them on Knighton ex post facto” as she
alleges; Knighton’s alleged conduct violated the Tribe’s
regulations that were in place—and that she wrote—
during her employment with the Tribe. Id. at 9; see Compl.
¶¶ 20-22. The Tribe is simply seeking to adjudicate its
claims against her in its chosen forum—the Tribal Court.
Knighton’s assertion that “any dispute between [her] and
the Tribe is subject to the regulatory procedures that
existed at the time of employment, to wit.: the disciplinary
and grievance procedures enumerated in ... the Tribe’s
Personnel Policy and Procedure Manual” is simiilarly
unpersuasive. Compl. ¶ 51. Defendants correctly note
that the “Tribe’s Administrative Policies and Procedures
confer jurisdiction not only to the Tribe, but more
importantly, to the Tribal Council [which is comprised of
the Tribe’s adult voting membership] in cases where the
Tribal Administrator is the focus of discipline.” Mot. at 8

59a
Appendix B
(Dkt. No. 10). Even if the Tribal Court did not presently
exist, then the Tribal Council would have jurisdiction
over the claims at issue. 20 Cedarville Rancheria Policies
(Dkt. No. 1-2 at 40). Moreover, the Tribe’s constitution,
adopted in 2011, provides that the “jurisdiction of [the
Tribe] shall extend to the land now within the confines
of the Cedarville Rancheria and to such other lands as
may hereafter be added thereto.” Cedarville Rancheria
Constitution and Bylaws (Dkt. No. 1-2 at 45).
Because the Tribe has both regulatory and adjudicative
jurisdiction over Knighton, the Tribal Court has subject
matter jurisdiction over the underlying action.
II. FAILURE TO JOIN INDISPENSABLE PARTY
Defendants argue that “[w]hether non-party R.I.S.E.
is an indispensable party has no bearing on Defendants’
motion to dismiss,” because “the threshold question”
is whether the Tribal Court has jurisdiction over the
underlying action. Reply at 8 (Dkt. No. 15). I agree. And
Knighton seemingly concedes that the two issues are
unrelated: “ the arguments in [defendants’] Motion to
Dismiss are limited to the former issue of subject-matter
20. An appeal hearing would be “subject to the control of the
[Tribal] Council,” which had the power to “vary the procedure” of an
appeal hearing, and the Tribal Council’s decision following an appeal
hearing would be final. Dkt. No. 1-2 at 40-41. The Personnel Manual
also provides that “[t]he specific type and degree of disciplinary
action will be determined by the nature of the offense,” which leaves
the door open for additional disciplinary actions to be utilized. Dkt.
No. 1-2 at 33.

60a
Appendix B
jurisdiction and do not address the latter issue of joinder
of RISE... .” Opp’n at 13. But my precise task must be
limited to the question of the Tribal Court’s jurisdiction.
Knighton has submitted no authority establishing that the
Tribal Court’s lack of jurisdiction over RISE divests it of
jurisdiction over the action. Because the Tribal Court has
jurisdiction over the underlying action pending against
Knighton, I do not address Knighton’s indispensable party
argument.
As a separate and independent reason for denying
Knighton’s indispensable party argument, she has failed
to exhaust her tribal remedies. Although the Tribal
Court certified as ripe for federal review “the question of
jurisdiction over Defendant Knighton, as this question has
already been appealed to the Cedarville Rancheria Court
of Appeals,” it expressly noted that “tribal processes as
to only [the jurisdiction] issue, and no other issues, have
been exhausted by the parties.” Dkt. No. 1-3 at 62. See
Nat’l Farmers Union, 471 U.S. at 856 (“[T]he orderly
administration of justice in the federal court will be served
by allowing a full record to be developed in the Tribal
Court before either the merits or any question concerning
appropriate relief is addressed.”).
CONCLUSION
Given the Tribal Court’s jurisdiction over the
underlying action, defendants’ motion to dismiss is
GRANTED WITH PREJUDICE.

61a
Appendix B
IT IS SO ORDERED.
Dated: February 15, 2017
/s/ William H. Orrick
William H. Orrick
United States District Judge

62a
AppendixOF
C THE COURT OF
APPENDIX C — OPINION
APPEALS FOR THE CEDARVILLE RANCHERIA,
FIlED MarCH 7, 2016
IN THE COURT OF APPEALS
FOR THE CEDARVILLE RANCHERIA
T.C. Case No. CED-C1-2014-0002
CEDARVILLE RANCHERIA OF
NORTHERN PAIUTE INDIANS,
Plaintiff-Appellee,
v.
DUANNA KNIGHTON; RESOURCES FOR
INDIAN STUDENT EDUCATION, INC. (R.I.S.E.);
OPPENHEIMER FUNDS, INC.,
AND DOES 1-10, INCLUSIVE
Defendants-Appellants.
OPINION
Plaintiff-Appellee Cedarville Rancheria of Northern
Paiute Indians (“Tribe’’) filed an action for damages
against the above-named Defendants-Appellants.
The Tribal Court dismissed Defendants-Appellants
R.I.S.E. and Oppenheimer Funds, Inc. from the action.
Defendant-Appellant Duanna Knighton (“Knighton”)
filed a Motion to Dismiss asserting that the Tribal Court
lacked jurisdiction. The Tribal Court denied the Motion
to Dismiss and this appeal followed.

63a
Appendix C
We affirm the Tribal Court’s holding that (1) it has
jurisdiction over Knighton, (2) the creation of the Tribal
Court nine months after Knighton’s employment with the
Tribe does not deprive the Tribal Court of jurisdiction and
(3) safety concerns do not require dismissal of this action.
We remand the matter to the Tribal Court to determine
whether R.I.S.E. is an indispensable party).
FACTS AND PROCEDURAL HISTORY
On October 2, 2014 the Tribe filed this action against
Knighton, a non-Indian, and the other named Defendants.
Defendants Oppenheimer Funds, Inc. and R.I.S.E. were
dismissed from the lawsuit because of lack of jurisdiction.
Knighton’s Motion to Dismiss for lack of jurisdiction was
denied.
Knighton worked for the Tribe for 18 years. The Complaint
alleges that Knighton mismanaged the Tribe’s finances
and illegally enriched herself with inflated salary and
benefits. The tortious actions alleged in the Complaint are
alleged to have occurred while Knighton was an employee
of the Tribe or during contractual transaction with the
Tribe. While an employee of the Tribe, Knighton’s duties
were carried out on the trust lands of the Tribe and on
the fee-owned headquarters of the Tribe in Alturas,
California.
Knighton’s Motion to Dismiss was denied, the Tribal Court
holding as follows:

64a
Appendix C
“Therefore, having concluded that the Cedarville
Rancheria has jurisdiction over the person of
Duanna Knighton, over the subject matter of a
civil tort allegedly committed against the Tribe,
and over the location of the tortious conduct:
the reservation land and tribal headquarters
off the reservation, the Tribe has jurisdiction
over the Defendant Knighton and over the
subject matter of the dispute, as well as over
the location wherein the Torts are alleged to
have occurred.”1
On appeal, Knighton asserts that the Trial Court does
not have personal jurisdiction over Knighton because
(1) she is not a member of the Tribe and does not own any
property with the Tribal Community and (2) the Tribal
Court does not have subject matter jurisdiction because
it was not created until nine (9) months after Knighton’s
employment with the Tribe ended. Knighton further
asserts that there exists severe safety issues by remaining
in the Tribal Court system. Lastly, Knighton asserts that
R.I.S.E. is an indispensable party that has been dismissed
from the action.
DISCUSSION
We review factual findings of the trial court to determine
whether such findings are based on substantial evidence
1. ROA 128. The Tribal Court also addressed the safety
concerns raised by Knighton, indicating that there is no evidence
that she faces any threat of physical violence by any member of
the Tribe.

65a
Appendix C
in the record pursuant to Rule 49 of Title II, Rules of
Procedure, Cedarville Rancheria Judicial Code. However,
we review questions of law and constitutional claims de
novo.
The Constitution and Bylaws of the Cedarville Rancheria
(approved by the Regional Director of the Department
of the Interior, Bureau of Indian Affairs on March 11,
2011) provides that the “jurisdiction of the organization
shall extend to the lands now within the confines of the
Cedarville Rancheria and to such other lands and to such
other lands as may hereafter be added thereto.” (Article
11).
The Cedarville Rancheria’s Judicial Code (“Code”)
provides that the jurisdiction of the Tribal Court shall
extend to all areas within the Cedarville Rancheria’s
territory (Judicial Code, Part 11, Section 201.A.). Section
201.C, subsection 2 of the Code provides, in pertinent part
that the Tribal Court has subject matter jurisdiction of:
“All civil causes of action arising at common
law, including, without limitation, all contracts
claims (whether the contract is written or oral
or existing at law), all tort claims (regardless of
the nature), all property claims (regardless of
the nature), all insurance claims, and all claims
based on commercial dealing with the Band,
its agencies, sub-entities and corporations
chartered pursuant to its laws, and all nuisance
claims.”

66a
Appendix C
Montana v. United States, 450 U.S. 544, at 564-565
(1981) holds that there are two exceptions to a Tribe’s
lack of jurisdiction over a non-Indian. First, a Tribe may
exercise personal jurisdiction over a non-Indian when such
non-Indian enters into a consensual relationship with the
Tribe through commercial dealing, contact, leases or other
arrangements. A Tribe may also exercise jurisdiction over
a non-Indian where the conduct of the non-Indian on fee
lands threatens or has some direct effect on the political
integrity, economic security or health or welfare of the
Tribe. In this proceeding, the Tribal Court correctly
concluded that Knighton entered into a consensual
relationship with the Tribe by being employed by the Tribe
and further after employment entered into one or more
contracts with the Tribe. This consensual relationship
was substantial and continuous for at least eighteen
(18) years. Further, some of the action of Knighton
occurred on Reservation lands and are alleged to have
harmed the economic security of the Tribe. Thus, the two
exceptions to the lack of jurisdiction over a non-Indian set
forth on Montana have been satisfied.
We therefore conclude that pursuant to the Tribe’s
Constitution and Bylaws and Judicial Code and the holding
in Montana the Cedarville Rancheria has personal
jurisdiction over Knighton the subject matter jurisdiction
over the allegations set forth in the Civil Complaint.
Next, Knighton argues that the Tribe does not have
jurisdiction because the Tribal Court did not exist until
nine (9) months after Knighton left employment with the
Tribe. Having concluded that the Cedarville Rancheria

67a
Appendix C
has personal jurisdiction over Knighton and subject
matter jurisdiction over the action, we note the Tribal
Court is merely the forum that the Tribe has established
to resolve this dispute. A tribe is free to utilize whatever
forum to resolve disputes that the tribe sees fit. It may
utilize the tribal council, a general council or a tribal
court. We therefore hold that Knighton’s termination of
employment prior to the establishment of the Tribal Court
does not prohibit the Tribal Court from hearing this case.
Knighton also asserts that the Tribal Court should not
exercise jurisdiction due to the danger to all parties as a
result of a previous incident in Tribal Court where four
individuals were murdered. The Tribal Court rejected
this argument holding as follows:
“Due to the Tribe’s low numbers of membership,
virtually all members of this Tribe are related
to both the victim of the violence and the
perpetrator. No violence has occurred, nor has
any been threatened to this Court’s knowledge,
since this incident perpetrated by one lone
member of the Tribe.
There has been no evidence presented that
Defendant Knighton faces any threat of
physical violence by the remaining members
of the Tribe.

68a
Appendix C
Finally, this Court holds virtually all hearings
telephonically, however local law enforcement
has been present when requested by the parties
or the Court or when safety concerns arise.” 2
(Emphasis in original)
The Tribal Court made a factual determination that there
is no evidence that Knighton faces any threat of physical
injury by any Tribal members. Moreover, there have
been other Court sessions with no incidents. We conclude
that there is substantial evidence to support the Tribal
Court’s ruling on the safety issue and we will therefore
affirm this decision pursuant to Rule 49 of Title II, Rules
of Procedure, Cedarville Rancheria Judicial Code.
Lastly, we examine Knighton’s argument that the matter
must be dismissed since R.I.S.E. has been dismissed from
is action and R.I.S.E. is an indispensable party pursuant
to the three-step process set forth in EEOC v. Peabody
W. Coal Co., 610 F.3d 1070, 1078 (9th Cir. 2010). The Tribe
asserts the R.I.S.E. is not a necessary party. The Tribe
also asserts that this issue was not addressed at the trial
court and should therefore be dismissed.
In Wright v. First Nat’l Bank of Altus, Oklahoma, 483
F.2d 73 (10th Cir. 1973) the Court held that a determination
as to whether a party is “necessary” such that joinder is
compulsory requires factual findings. In this case, the
matter was not raised until appeal and therefore, the trial
court had no opportunity to make the required findings.
2. ROA 129

69a
Appendix C
The trial court is the appropriate forum to develop the
factual record and make the necessary findings. We, will
therefore remand this issue to the trial court.
CONCLUSION
For the reasons set forth above, we Affirm the Trial
Court findings that the Cedarville Rancheria has personal
jurisdiction over Knighton and subject matter jurisdiction
over alleged tortious actions of Knighton and that the
Tribal Court is the appropriate forum to hear this matter.
We Remand the issue of whether R.I.S.E. is a necessary
party to the Tribal Court to make the required factual
findings.
Dated this 15th day of February 2016
/s/			
Bill Kockenmeister
Appellate Judge
/s/			
Charlene Jackson
Appellate Judge
/s/			
Amanda Wilbure
Appellate Judge

70a
Appendix
APPENDIX D — ORDER
OFDTHE CEDARVILLE
RANCHERIA OF THE NORTHERN PAIUTE
INDIANS, TRIBAL COURT, FILED
MARCH 11, 2015
CEDARVILLE RANCHERIA
OF NORTHERN PAIUTE INDIANS
TRIBAL COURT
Case No.: CED-CI-2014-00002
CEDARVILLE RANCHERIA
OF NORTHERN PAIUTE INDIANS,
Plaintiff,
v.
DUANNA KNIGHTON; RESOURCES FOR
INDIAN STUDENT EDUCATION, INC. (R.I.S.E.);
OPPENHEIMER FUNDS, INC; AND DOES 1-10,
INCLUSIVE,
Defendants.
ORDER AFTER HEARING: MOTION TO
DISMISS FRCP 12(b)(2)
Date: TBD
Time: TBD
HON. JUDGE PATRICIA LENZI

71a
Appendix D
On January 8, 2015, a telephonic hearing was held on
Defendant DUANNA KNIGHTON’s Motion To Dismiss
pursuant to FRCP l2(b)(2) in the above-captioned matter.
Present were: Jack Duran, Attorney for the Plaintiffs
Cedarville Rancheria Tribe; Patrick Deedon, Attorney
for Defendant Duanna Knighton. The Honorable Patricia
Rae Lenzi presided over the hearing.
Having read and considered all authorities filed by
each party, and having heard the arguments of each party,
the Court finds that the Tribal Court has jurisdiction over
the parties and the subject matter, as well as the location
which gives rise to the instant dispute. For the reasons set
forth below, the Tribal Court denies the Motion to Dismiss.
APPLICABLE LAW
Cedarville Rancheria’s Tribal Constitution states, at
Art II:
The jurisdiction of this organization shall
extend to the land now within the confines of
the Cedarville Rancheria and to such other
lands as may hereafter be added thereto.
Cedarville Rancheria BYLAWS, Art. VIII, Sec.
1(b), states that the community council1 of the Cedarville
1. The Community Council of the Cedarville Rancheria is
the full adult voting membership. CR Const. Art. IV, Section I.
The Executive Committee is elected from the Community Council,
and has limited duties and authority. CR Const. Art IV, Section 2;
BYLAWS of the CR, Art. I, Sec. 1-3; CR BYLAWS Art. VIII.

72a
Appendix D
Rancheria may “... veto any proposed sale, disposition,
lease or encumbrance of tribal lands, interest in lands or
other tribal assets of the community.” Art VIII Section
2 limits the authority of the Executive Committee in its
language:
The executive committee shall have the
following powers, but shall not commit the
Cedarville Rancheria to any contract, lease
or other transaction unless it is authorized
by duly enacted ordinance or resolution of the
community council[- the power to] ... Carry out
all ordinances, resolutions or other enactments
of the community council . ...
The Constitution and Bylaws of the Cedarville Rancheria
were adopted by election of its membership on February 24,
2011. They were submitted to the Regional Director of the
Bureau of Indian Affairs on March 4, 2011. The Regional
Director of the United States Department of the Interior,
Bureau of Indian Affairs, approved the Constitution and
Bylaws of the Cedarville Rancheria on March 18, 2011.
Cedarville Rancheria’ s Judicial Code identifies the
territorial jurisdiction of the Tribal Court at Part II,
Section 201.A.:
The jurisdiction of the Tribal Court and the effective
area of this Code shall extend to disputes arising
within or concerning all territory within the Cedarville
Rancheria boundaries, including, but not limited to,
trust lands, fee patent lands, allotments, assignments,

73a
Appendix D
roads, waters, bridges and existing and future lands
outside the boundaries owned or controlled by the
Rancheria for its benefit, the benefit of its members and
the benefit of other Indian persons.
The Tribe’s Judicial Code identifies the Subject
Matter jurisdiction of the Tribal Court at Section 201.B.
Pertinent subsections are 3 and 4. :
The jurisdiction of the Tribal Court shall extend to:
...
3. All persons outside the exterior boundaries
of the Cedarville Rancheria Reservation, as
defined herein, within the jurisdiction of
the Rancheria pursuant to federal or tribal
law, including all persons whose activity on
or off reservation threatens the Rancheria,
government or its membership.
4. All other persons whose actions involve
or affect the Rancheria, or its members,
through commercial dealings, contracts,
leases or other arrangements. For purposes
of this Code, person shall mean all natural
persons, corporations, joint ventures,
partnerships, trust, trust fonds, public
or private organizations or any business
entity of whatever kind.

74a
Appendix D
The Tribe limits its court’s jurisdiction over actions
under Section 201.C:
The judicial power of the Tribal Court shall extend to:
1. All matters and actions within the power
and authority of the Cedarville Rancheria
including controversies arising out of
the Constitution and By-Laws of the
Cedarville Rancheria, statutes, ordinances,
resolutions and codes enacted by the
Cedarville Rancheria; and such other
matters arising under enactments of the
Cedarville Rancheria or the customs and
traditions of the Cedarville Rancheria.
2. All civil causes of action arising at common
law including, without limitation, all
contract claims (whether the contract at
issue is written or oral or existing at law),
all tort claims (regardless of the nature), all
property claims (regardless of the nature),
all insurance claims, and all claims based
on commercial dealing with the Band, its
agencies, sub-entities, and corporations
chartered pursuant to its laws, and all
nuisance claims. The court shall have
original jurisdiction whether the common
law cause of action is one which has been
defined as Band common law, or is one
which exists at common law in another
jurisdiction and which is brought before

75a
Appendix D
the Tribal Court based upon reference to
the law of that other jurisdiction. For the
purposes of this Code, “common law” shall
mean the body of those principles and rules
of action, relating to the government and
security of persons and property, which
derive their authority solely from the
usages and customs, or from the judgments
and decrees of courts recognizing and
affirming such usages and customs, and as
is generally distinguished from statutory
law.
3. Other actions arising under the laws of the
Rancheria as provided in those laws.
4. Limitation of Actions.
No complaint shall be filed in a civil action
unless the events shall have occurred
within a six (6) year period prior to the
date of filing the complaint; provided, that
this general statute of limitations shall
not apply to suits filed to recover public
money or public property intentionally or
erroneously misspent, misappropriated or
misused in any way; and further provided
that this general statute of limitations
shall not apply to any debt owed the
Rancheria or any of its agencies, arms or
instrumentalities, whether organized or
not under tribal law.

76a
Appendix D
The Tribe adopted the Federal Rules of Civil
Procedure (FRCP) for its court. Cedarville Rancheria
Judicial Code Section 702.
FRCP Rule 12(b)(2) is the rule under which this
Motion is before the Court.
The ability for a tribe to exercise jurisdiction over
a non-member is set forth in Montana v. United States,
(1981) 450 U.S. 544, at 564-565 (citations omitted):
“A tribe may regulate, through taxation,
licensing, or other means, the activities
of n o nm embers wh o ent er co n sen s u a l
relationships with the tribe or its members,
through commercial dealing, contracts, leases,
or other arrangements. A tribe may also retain
inherent power to exercise civil authority over
the conduct of nonIndians on fee lands within
its reservation when that conduct threatens or
has some direct effect on the political integrity,
the economic security, or the health or welfare
of the tribe.”
The facts alleged in the Complaint are assumed to be
proven for purposes of determining jurisdiction over the
Defendant in this Motion.
The case cited by Plaintiffs during oral argument
on this Motion, namely Bugenig v. Hoopa Valley Tribe,
(9 th Cir. 2001) 266 F.3d 1201, is instructive, but not
directly applicable. That case involved a tribe whose

77a
Appendix D
constitution, approved by the Secretary of the Interior
in 1972 was later “ratified and confirmed” by an act of
Congress in 1988: the Hoopa-Yurok Settlement Act 25
USC. 1300i-1300i-11. In contrast, Cedarville Rancheria’s
constitution has not been “ratified and confirmed” by
an act of Congress, only by approval of the Secretary of
the interior in 2011. The language in the Hoopa Tribe’s
constitution and the Cedarville Rancheria’ s constitution
are virtually identical, 2 however, when describing lands
beyond the borders of the reservation as it existed at the
time the constitutions were enacted and approved by the
Secretary of the Interior. The Bugenig v. Hoopa Valley
Tribe case also involves disputes arising from use of fee
patented lands located wholly within the boundaries of
a reservation, that were part of the reservation when
it was first established in 1887. The headquarters of
the Cedarville Rancheria are not located within its
reservation boundaries. Still, when read in context with
the Indian Reorganization Act, 25 U.S.C. §§ 465 and 467,
lands can be added to a reservation, or later acquired.
Section 467 “appears to be designed to foresee that
contingency, extending tribal jurisdiction over any new
lands so acquired.” Bugenig v. Hoopa Valley Tribe, (9th
Cir. 2001) 266 F.3d 1201, at 70. Therefore, the Cedarville
Rancheria’s Jurisdiction extends to its headquarters
under its own laws.
2. Cedarville Rancheria’s constitution references jurisdiction
over its reservation lands “and to such other lands as may
hereafter be added thereto.” The Hoopa Valley Tribe’s constitution
references jurisdiction over its reservation lands “and to such
other lands as may hereafter be acquired by or for the Hoopa
Valley Indians.”

78a
Appendix D
FINDINGS OF FACT
1. The Court takes judicial notice that is case is the
5th case filed before this Court.
2. Defendant Duanna Knighton is nonIndian.
3. The Court assumes, for the sake of determining
jurisdiction in this Motion, that the following facts
are true:
a

Defendant Duanna Knighton was employed
by the Cedarville Rancheria (“Tribe”)
during most, if not all of, the time that the
alleged tortious conduct occurred.

b. Some of Defendant Duanna Knighton’s
duties and actions at issue in this case were
carried out on the Cedarville Rancheria’s
trust lands.
c. Some of Defendant Duanna Knighton’s
duties and actions at issue in this case
were carried out at the fee-owned tribal
headquarters building of the Tribe in the
town of Alturas, CA, and not on trust lands
of the Tribe. However, some of the duties
carried out at Tribal Headquarters in
Alturas involved actions and effects on the
Tribal trust lands in Cedarville.
d. The actions alleged to have occurred in the
Complaint that give rise to the allegations in

79a
Appendix D
the Complaint are alleged to have occurred
either while Defendant Duanna Knighton
was an employee of the Tribe, or during one
or more contractual transactions with the
Tribe.
e. The actions alleged to have occurred in the
Complaint affected the economic security
of the Tribe.
CONCLUSIONS OF LAW
Montana jurisdiction: Duanna Knighton is a nonIndian who entered into a consensual relationship with the
Tribe by being employed by the Tribe, and entering into
one or more contracts with the Tribe, and/or on behalf of
the Tribe. These actions fall within the Montana exception
#1, namely consensual relationships with the tribe or
its members, through commercial dealing, contracts,
leases, or other arrangements. In addition. as alleged in
the Complaint, the actions of Defendant Knighton, some of
which occurred on the Tribe’s reservation lands, if found to
be true, were conduct [that] threatens or has some direct
effect on the political integrity, the economic security, or
the health or welfare of the tribe. Therefore the actions
fall within the Montana exception #2.
//
//
//
//

80a
Appendix D
FORUM FOR DISPUTE RESOLUTION –
TRIBAL COURT OR TRIBAL
COMMUNITY COUNCIL
The Cedarville Rancheria Tribe has civil jurisdiction
over the Defendant Duanna Knighton, in this matter. The
Tribe’s Judicial Code and Constitution, in conjunction with
federal law, give the Cedarville Rancheria subject matter
jurisdiction over this dispute.
As is clear from the language in Montana, the ability
for a tribe to exercise civil jurisdiction is not the equivalent
of requiring a tribe to have a long-establish tribal court
to hear civil disputes. Tribes may use the forum that the
particular tribe determines it wishes to use: in some cases
the forum may be a tribal council, in others a general
council of all tribal members, in still others it may be a
committee of some sort, and in others a court that operates
similarly to state and federal courts.
Which specific forum a Tribe chooses in which to
exercise its jurisdiction over persons or subject matters
is a separate question. 3 The Tribe in this instance has,
under its Judicial Code, established a Tribal Court to
hear its disputes. Prior to the existence of the Court, the
Tribal Government had only its own community council
– the entire adult voting membership of the Tribe – to
3. See Cherokee Nation v. Georgia, 30 U.S. (5 Pet.) 1, 8 L. Ed.
25 (1831) Where the Court held that a tribe is a “distinct political
society that was separated from others, capable of managing its
own affairs, and governing itself.”

81a
Appendix D
hear disputes. In the absence of a tribal court to hear
disputes, the Tribe does not lose its civil jurisdiction. The
Tribe retains civil jurisdiction. The remaining forum for
this particular Tribe becomes the Community Council
– the entire adult voting membership of the Cedarville
Rancheria Tribe.
The exercise of the Cedarville Rancheria of Northern
Paiute Indians’ jurisdiction over persons and lands is set
forth in its own Constitution and Judicial Code, as well as
within applicable federal law.
Therefore, having concluded that the Cedarville
Rancheria has jurisdiction over the person of Duanna
Knighton, over the subject matter of a civil tort allegedly
committed against the Tribe, and over the location of
the tortious conduct: the reservation lands and tribal
headquarters off of the reservation, the Tribe has
jurisdiction over the Defendant Knighton and over the
subject matter of the dispute, as well as over the location
wherein the torts are alleged to have occurred.
The Tribal Court for the Cedarville Rancheria is the
forum where this Tribe has elected to have its disputes
of this sort to be heard.
SAFETY CONCERNS
The Court takes judicial notice of the prior cases
heard in this court in order to clarify the number of cases
that have been heard by this Court, and to address the
concerns of Defendant Knighton for the safety of persons

82a
Appendix D
appearing before this Court. There have been a total of
5 cases filed and heard before this Court as of the date of
this case’s filing. This instant case is the 5th case filed. The
Court confirms that the first case heard by this Court was
wholly unrelated to this matter, and was a case wherein
a violent act occurred, disrupting the initial hearing. The
initial case before this Court has concluded since the initial
hearing. The perpetrator of the violence has been charged
and remains in custody in another jurisdiction.
Due to the Tribe’s low numbers of membership,
virtually all members of this Tribe are related to both the
victims of the violence and the perpetrator. No violence
has occurred, nor has any been threatened to this Court’s
knowledge, since the incident perpetrated by one lone
member of the Tribe.
There has been no evidence presented that Defendant
Knighton faces any threat of physical violence by the
remaining members of the Tribe.
Finally, this Court also holds virtually all hearings
telephonically, however local law enforcement 15 has been
present when requested by the parties or the Court and
when safety concerns arise.
COURT CLERK ASSIGNMENT
The Court has previously ordered that this matter be
assigned, for all purposes, to an assistant Court Clerk.
Ms. Nikki Munholand, who is a witness in this matter, is
no longer assigned to this matter as Court Clerk.

83a
Appendix D
ORDER
For the reasons stated above, the Motion to Dismiss
is DENIED.
The parties are ordered to select 3 dates for a
subsequent first appearance pursuant to FRCP 16(a) one
of which will be selected by the Court for said hearing.
The dates shall be identified, in writing, signed by both
parties, and submitted to the Court Clerk no later than
March 31, 2015, close of business. The purpose of the next
hearing is to assist the parties in establishing a schedule
for a FRCP 26 report, and to set deadlines for various
aspects of this case.
IT IS SO ORDERED
DATED this 11th day of March, 2015
		
		
		

/s/
Honorable Patricia R. Lenzi, Chief Judge
Cedarville Rancheria Tribal Court Judge

